<html>
<title> - UNCLOGGING PIPELINE SECURITY: ARE THE LINES OF RESPONSIBILITY CLEAR?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





  UNCLOGGING PIPELINE SECURITY: ARE THE LINES OF RESPONSIBILITY CLEAR?

=======================================================================

                             FIELD HEARING

                               before the

                      SUBCOMMITTEE ON MANAGEMENT,
                     INVESTIGATIONS, AND OVERSIGHT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 19, 2010

                               __________

                           Serial No. 111-62

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
 61-744 PDF               WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2250  Mail: Stop SSOP, Washington, DC 
20402-0001






                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Mark E. Souder, Indiana
Eleanor Holmes Norton, District of   Daniel E. Lungren, California
    Columbia                         Mike Rogers, Alabama
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Henry Cuellar, Texas                 Gus M. Bilirakis, Florida
Christopher P. Carney, Pennsylvania  Paul C. Broun, Georgia
Yvette D. Clarke, New York           Candice S. Miller, Michigan
Laura Richardson, California         Pete Olson, Texas
Ann Kirkpatrick, Arizona             Anh ``Joseph'' Cao, Louisiana
Ben Ray Lujan, New Mexico            Steve Austria, Ohio
William L. Owens, New York
Bill Pascrell, Jr., New Jersey
Emmanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, U.S. Virgin Islands
Mary Jo Kilroy, Ohio
Dana Titus, Nevada
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director

                                 ------                                

       SUBCOMMITTEE ON MANAGEMENT, INVESTIGATIONS, AND OVERSIGHT

             Christopher P. Carney, Pennsylvania, Chairman
Peter A. DeFazio, Oregon             Gus M. Bilirakis, Florida
Bill Pascrell, Jr., New Jersey       Anh ``Joseph'' Cao, Louisiana
Al Green, Texas                      Daniel E. Lungren, California
Mary Jo Kilroy, Ohio                 Peter T. King, New York (Ex 
Bennie G. Thompson, Mississippi (Ex      Officio)
    Officio)
                   Tamla T. Scott, Director & Counsel
                          Nikki Hadder, Clerk
                    Michael Russell, Senior Counsel
               Kerry Kinirons, Minority Subcommittee Lead













                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Christopher P. Carney, a Representative in Congress 
  From the State of Pennsylvania, and Chairman, Subcommittee on 
  Management, Investigations, and Oversight......................     1
The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida, and Ranking Member, Subcommittee on 
  Management, Investigations, and Oversight......................     2

                               WITNESSES
                                Panel I

Mr. Jack Fox, General Manager, Pipeline Security, Transportation 
  Sector Network Management, Transportation Security 
  Administration, Department of Homeland Security:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
Mr. Jeffrey Wiese, Associate Administrator for Pipeline Safety, 
  Pipeline and Hazardous Materials Safety Administration, 
  Department of Transportation:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
Mr. Paul W. Parfomak, Specialist in Energy and Infrastructure 
  Policy, Congressional Research Service, The Library of 
  Congress:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Mr. Gary L. Forman, Chair, Pipeline Sector Coordinating Council:
  Oral Statement.................................................    22
  Prepared Statement.............................................    23

                                Panel II

Mr. Larry Gispert, Director, Hillsborough County Emergency 
  Management:
  Oral Statement.................................................    43
  Prepared Statement.............................................    45
Mr. Ron Rogers, Assistant Chief-Administration, Hillsborough 
  County Fire Rescue:
  Oral Statement.................................................    47
  Prepared Statement.............................................    48
Colonel Ed Duncan, Commander, Department of Operational Support, 
  Hillsborough County Sheriff's Office:
  Oral Statement.................................................    49
  Prepared Statement.............................................    51

                             For the Record

Mr. Jack Fox, General Manager, Pipeline Security, Transportation 
  Sector Network Management, Transportation Security 
  Administration, Department of Homeland Security:
  Map............................................................    41
  Graph..........................................................    58

 
  UNCLOGGING PIPELINE SECURITY: ARE THE LINES OF RESPONSIBILITY CLEAR?

                              ----------                              


                         Monday, April 19, 2010

             U.S. House of Representatives,
                    Committee on Homeland Security,
 Subcommittee on Management, Investigations, and Oversight,
                                                    Plant City, FL.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
the Plant City City Hall, 302 West Reynolds Street, Plant City, 
Florida, Hon. Christopher P. Carney [Chairman of the 
subcommittee] presiding.
    Present: Representatives Carney and Bilirakis.
    Mr. Carney. The Subcommittee on Management, Investigations, 
and Oversight will come to order.
    The subcommittee is meeting today to receive testimony on 
``Unclogging Pipeline Security: Are the Lines of Responsibility 
Clear?''
    I would like to thank everybody for joining us today and I 
would especially like to thank my good friend and Ranking 
Member Bilirakis for inviting me to his district to hold this 
hearing. I am especially grateful after yesterday morning 
waking up in northern Pennsylvania to snow. So being down here 
in relatively warmer Florida is great. Frankly, the only thing 
warmer than the weather is the reception that I have received 
and I am very grateful to all of you for that.
    The purpose of this hearing is to examine the management of 
the Nation's pipeline networks which transmit oil and gas 
across the United States and have vital links to critical 
infrastructure such as power plants, airports, and military 
bases. The management and oversight of these systems present 
unique homeland security challenges as they are vulnerable to 
both accidents and terrorist attacks.
    The National pipeline system is an extensive mode of 
transportation. Virtually all the critical pipeline 
infrastructure is owned or operated by private entities. 
However, the Federal Government is responsible for regulating, 
securing, and ensuring the safety of the National pipeline 
system.
    There are currently 168,900 miles of hazardous liquid 
pipelines operated by over 200 companies. There are 320,500 
miles of natural gas transmission pipelines operated by over 
700 companies. There are 2.2 million miles of natural gas 
distribution pipelines operated by over 1,300 companies. Now I 
mention these statistics because I think they demonstrate just 
how difficult of a job it is to secure these pipelines. But 
there can be zero tolerance for failure in securing these 
pipelines because of the potential lethality of the products 
that they carry.
    In 2008, in Plum Borough, Pennsylvania, a natural gas 
explosion killed a man and seriously injured a 4-year-old girl 
and three houses were destroyed and 11 others were seriously 
damaged. The National Transportation Safety Board determined 
that the probable cause of the explosion was excavation damage 
to a 2-inch natural gas distribution pipeline that stripped the 
pipe's protective coating and made the pipe susceptible to 
corrosion and, consequently, failure.
    In 2005, a pipeline exploded near a home near Moon 
Township, Pennsylvania causing injuries to two people. This 
explosion was caused as a result of a gas company worker who 
ruptured a natural gas line and failed to report it to proper 
authorities.
    Of course, I am aware of the incident that happened close 
to here in 2007 involving the release of ammonia after a 
teenage boy drilled a hole into the pipeline.
    Sometimes the damage to a pipeline is accidental and 
sometimes it is deliberate. In fact, a prison just outside of 
my district in Scranton, Pennsylvania holds a man who tried to 
recruit al-Qaeda crews to strike natural gas pipelines in 
Alaska, Pennsylvania, New Jersey, and Wyoming. Luckily, he was 
not successful.
    Now I mention these incidents because they show that we 
must continue to improve the security of our pipeline 
infrastructure.
    Today, I will be interested in learning if sufficient 
coordination exists between the Department of Homeland Security 
and the Department of Transportation. I would also like to 
learn if the Transportation Security Administration has 
sufficient capability and funding to deal with their role in 
pipeline security.
    Last, I will be interested in hearing from our witnesses if 
written pipeline regulation is needed. Under the current 
system, pipeline owners and operators are given guidelines that 
should be followed. However, these are merely guidelines and 
there is no enforcement authority that can mandate compliance.
    Given the frequency of pipeline-related incidents that 
occur throughout the country, coupled with the extent of both 
human and economic loss that could result from these incidents, 
it may be wise to consider whether the systems should have a 
set of written regulations.
    I would like to thank all the witnesses for their 
participation and I look forward to their testimony.
    The Chair now recognizes the Ranking Member of the 
subcommittee, my good friend Gus Bilirakis from Florida.
    Mr. Bilirakis. Thank you very much, I appreciate it, Chris. 
We are good friends, and this is an example of how Washington, 
DC should work. We do work in a bipartisan manner and we are 
very similar in philosophy. I am trying to get him to come over 
to our side; he is very, very similar----
    [Laughter.]
    Mr. Bilirakis. But in any case, safety and security is No. 
1 as far as I am concerned.
    I want to welcome everyone to the Ninth Congressional 
District and a wonderful, wonderful town, one of my favorite 
towns, Plant City. Thanks for being here, Chris, I appreciate 
it so very much.
    I am pleased the subcommittee is meeting to consider the 
security of our Nation's pipelines. There are more than 2.5 
million miles of pipelines within the United States.
    Here in the Tampa Bay area, we have hundreds of miles of 
pipelines carrying oil, gas, jet fuel, and other chemicals that 
are very vital to this region, and economically as well. It is 
so very, very important, the safety and the security.
    Pipeline systems, both at home and abroad have been 
targeted by terrorists. In June 2007, investigators arrested 
four men who plotted to blow up JFK International Airport and 
neighborhoods in Queens, New York by detonating a fuel pipeline 
and storage tanks. Terrorists have also targeted pipelines in 
Colombia, Nigeria, and the United Kingdom. In addition, there 
have been reports of al-Qaeda encouraging attacks on American 
pipelines. This does not get the attention and that is why we 
are bringing this issue up today, the focus as usual being on 
airlines. But this is so very important, very critical that we 
protect this infrastructure.
    Hillsborough County is no stranger to pipeline breaches, as 
Chris mentioned. In November 2007, teenagers drilled into an 
anhydrous ammonia pipeline after being told that the pipeline 
contained money. This breach necessitated the evacuation of 
hundreds of people and I understand the cost was $250,000, that 
was the damage. These incidents serve to highlight the 
potential vulnerabilities of our Nation's pipelines.
    I am looking forward to hearing more about how Federal, 
State, and local agencies and their private sector partners are 
working together to ensure the security of this critical 
infrastructure. I am specifically interested in discussing the 
memorandum of understanding between the Department of Homeland 
Security and the Department of Transportation relating to 
pipeline security. Does the current MOU sufficiently delineate 
the respective roles of DHS and DOT? Does it require updating?
    The distinguished witnesses on our second panel will be 
able to provide this subcommittee with valuable insight into 
their pipeline security preparedness and response efforts and I 
thank them for joining us here today.
    With that, I would like to welcome all of our witnesses and 
all of our spectators and look forward to your testimony. I 
thank you, Mr. Chairman, for attending, and I yield back the 
balance of my time.
    Mr. Carney. Thank you.
    Today's hearing will be divided into two panels. The first 
panel is comprised of Government witnesses and the second will 
be comprised of representatives of the local community. I want 
to welcome each of our witnesses.
    Our first witness is Mr. Jack Fox. Mr. Fox joined TSA in 
September 2002 to start the pipeline security program. He is 
responsible for the development and implementation of pipeline 
security programs at TSA. Since starting at TSA, Mr. Fox has 
conducted reviews of the security of the Nation's largest 
pipeline companies. He has also worked closely with the Natural 
Resources Canada on the vulnerability assessments that have 
been completed on the cross-border pipeline infrastructure.
    Before joining TSA, Mr. Fox worked as the investigator in 
charge for pipeline accident investigations with the National 
Transportation Safety Board, the NTSB, in Washington. During 
his time with NTSB, he was responsible for leading pipeline 
accident investigations and the preparation and submission of 
the final accident reports to the Safety Board for approval of 
the report and the safety recommendations that were being made.
    Prior to working at NTSB, Mr. Fox worked in various 
capacities in the pipeline industry in the United States for 
over 30 years.
    Mr. Fox currently lives in Virginia and he is a native of 
Pennsylvania and a graduate of Penn State University.
    [Laughter.]
    Mr. Carney. Just a bit of parochialism here, folks.
    Our second witness is Mr. Jeffrey Wiese. Mr. Wiese serves 
as the Associate Administrator for Pipeline Safety for the 
Pipeline and Hazardous Materials Safety Administration, or 
PHMSA, in the United States Department of Transportation. In 
this capacity, Mr. Wiese leads PHMSA's effort of regulations 
covering the design, construction, operation, and maintenance 
and spill response planning for the Nation's pipeline 
transportation system.
    Previously, Mr. Wiese served as PHMSA's Director of Program 
Development for Pipeline Safety where he led several programs 
to enhance PHMSA pipeline safety damage prevention and 
community involvement initiatives, public awareness, field 
implementation of the integrity management program rules, 
research and development and the National pipeline mapping 
system. Mr. Wiese also directed budget development, user fee 
assessment and oil spill planning and preparedness for PHMSA's 
pipeline safety program.
    Our third witness is Dr. Paul Parfomak. Dr. Parfomak is a 
specialist at the Congressional Research Service, or the CRS, 
the non-partisan policy research and analysis agency of the 
U.S. Congress, where his areas of expertise include energy 
infrastructure development, critical infrastructure protection, 
and terrorism threat analysis.
    Prior to joining CRS, Dr. Parfomak was an associate 
principal in the energy practice of McKenzie & Company, a 
global management consulting firm.
    Prior to McKenzie, he was a consultant at Barakat & 
Chamberlin, where he assisted North American utilities in 
developing and implementing energy conservation and load 
management programs for their customers.
    Dr. Parfomak earned a Ph.D. in engineering and public 
policy from Carnegie Mellon University--another Pennsylvania 
school----
    [Laughter.]
    Mr. Carney [continuing]. Where he was an Argonne National 
Laboratory research fellow. His undergraduate degree in 
aeronautics and astronautics is from MIT. He has been a special 
lecturer at the Tepper School of Business at Carnegie Mellon 
and currently sits on the Washington, DC Advisory Council of 
the Carnegie Institute of Technology.
    Our fourth witness is Mr. Gary Forman. Mr. Forman has 
worked for over 35 years in the energy field with experience in 
engineering, operations, emergency management, and many other 
facets of the industry.
    Since late 2001, he has been a full-time security 
professional serving first as chief security officer for the 
NiSource Gas Transmission Companies and since March 2006 as the 
Director of Corporate Security for NiSource, Inc.
    Mr. Forman is a past chairman of the American Gas 
Association Security Committee and past chairman of the 
Interstate Natural Gas Association of America Security 
Committee. He has also served as the chair of the Oil and 
Natural Gas Sector Coordinating Council and as a member of the 
Partnership for Critical Infrastructure Security.
    He is testifying today in his capacity as the chair of the 
Pipeline Sector Coordinating Council.
    Mr. Forman has a bachelor's of science in mechanical 
engineering from West Virginia University, which is really 
close to Pennsylvania.
    [Laughter.]
    Mr. Carney. And a master's of business administration----
    Mr. Bilirakis. I think this is all about Pennsylvania. You 
stacked this hearing, Chris.
    Mr. Carney. You do what you can.
    And a master's of business administration from the 
University of Richmond.
    Without objection, the witnesses' full statements will be 
inserted into the record and I now ask each witness to 
summarize their statement for 5 minutes, beginning with Mr. 
Fox.

  STATEMENT OF JACK FOX, GENERAL MANAGER, PIPELINE SECURITY, 
   TRANSPORTATION SECTOR NETWORK MANAGEMENT, TRANSPORTATION 
    SECURITY ADMINISTRATION, DEPARTMENT OF HOMELAND SECURITY

    Mr. Fox. Thank you. Good morning, Chairman Carney and 
Ranking Member Bilirakis.
    As General Manager of the Pipeline Security Division of the 
Transportation Security Administration, I am pleased to appear 
today to discuss TSA's role in protecting the security of our 
Nation's pipelines. I appreciate the subcommittee's interest in 
this important infrastructure issue.
    As stated, the United States relies on over 2.5 million 
miles of pipelines operated by over 3,000 companies for 
transporting petroleum and natural gas. This massive 
infrastructure delivers approximately two-thirds of the 
petroleum products and nearly all of the natural gas used in 
the United States. Preserving the security of this system is 
critical to our economic well-being and to our National 
security.
    Because our Nation's pipeline system is of such critical 
importance, there is a risk that terrorists may target it with 
the goal of producing mass casualties and significant economic 
aftershocks. Less than 3 years ago, the Federal Bureau of 
Investigations arrested members of a group allegedly plotting 
to blow up supply tanks and the pipeline feeding the JFK 
International Airport in New York. The threat to pipelines is 
real and evolving and we must remain ever-vigilant to safeguard 
our Nation's pipeline system.
    TSA is dedicated to maintaining a robust Nation-wide 
pipeline security program that instills public confidence in 
the reliability of the Nation's critical energy infrastructure, 
enhances public safety, and promotes the continued functioning 
of other critical infrastructure sectors that depend on secure 
and reliable sources of energy delivered by pipelines.
    TSA maintains clear lines of communications and close 
working relationships with Government and industry partners to 
share critical information related to pipeline security. In 
particular, we are continuing to build upon our strong working 
relationship with the Department of Transportation's Pipeline 
and Hazardous Materials Safety Administration, or PHMSA. TSA 
and PHMSA maintain virtually daily contact, including 24/7 
communication and information sharing in the event of a 
pipeline incident. Through close coordination with PHMSA and 
vigorous outreach efforts to our pipeline industry 
stakeholders, we have made substantial progress in defining and 
solidifying the relative roles of TSA and PHMSA in coordinating 
the protection of pipeline systems, with TSA having 
responsibility for security matters and PHMSA having 
responsibility for safety matters. In 2006, we signed an annex 
to the Department of Homeland Security and Department of 
Transportation Memorandum of Understanding documenting this 
fact.
    In addition to the close collaboration with PHMSA, TSA 
works to maintain close relationships with State, local, 
international, and non-governmental stakeholders. For example, 
for the last 5 years, TSA and Natural Resources Canada have co-
hosted an annual international pipeline security forum to 
enhance Government and pipeline industry domain awareness and 
facilitate a dialogue on pipeline security issues. The 
conference is attended by officials from the United States and 
Canadian governments, pipeline associations, pipeline 
operators, and representatives from the security, intelligence, 
and law enforcement communities. The 2010 forum is planned for 
October 28-29 in Philadelphia. The forum provides an 
opportunity for pipeline industry, industry associations, and 
Government representatives to exchange security information and 
best practices.
    TSA has undertaken a number of initiatives to improve the 
security of pipelines. I would like to highlight a few examples 
of our key programs.
    The first is pipeline corporate security review. This is 
the centerpiece of TSA's pipeline security program. It was 
begun in 2003 and these reviews have enabled TSA to build 
relationships with pipeline operators to assess their corporate 
security plans and programs and to provide them with 
recommendations for improvement. TSA has taken a risk-based 
approach and has conducted reviews on all the top 100 pipeline 
systems in the country and is currently working on the second 
round of reviews of these systems.
    Pipeline security awareness training. TSA has developed a 
30-minute training CD for pipeline operators. The training 
covers topics such as security measures, awareness of 
vulnerabilities, potential threats, and targeting. To date, TSA 
has delivered training CDs to over 300 companies, providing 
training to an estimated 61,000 pipeline employees. Also 
presently in production is a video on pipeline security for 
local law enforcement. This project is underway and will be 
finished later this year.
    TSA has issued smart practices reflecting the lessons 
learned from our reviews over several years. A qualitative and 
quantitative examination of data from our reviews, coupled with 
literature research regarding pipeline security measures and 
consultation with the pipeline industry, have identified smart 
practices operators can implement to promote an effective 
security program. This document is intended to assist operators 
in their security planning and the implementation of security 
measures to protect their facilities.
    In conclusion, TSA will continue its efforts to enhance the 
security of pipeline systems as directed by the 9/11 Act and 
other statutory and DHS requirements. Although TSA has been 
given clear authority and responsibility for the oversight and 
enforcement of pipeline security, we recognize that the success 
of this effort relies on the close coordination and on-going 
cooperation with industry and Government partners, including 
PHMSA. This coordination enhances TSA's ability to improve 
pipeline security in a manner that is safe and allows for the 
efficient flow of commerce.
    Thank you for the opportunity to appear before the 
subcommittee today. I will be happy to answer any questions you 
might have.
    [The statement of Mr. Fox follows:]
                     Prepared Statement of Jack Fox
                             April 19, 2010
    Good morning, Chairman Carney, Ranking Member Bilirakis, and 
distinguished Members of the subcommittee. As General Manager of the 
Pipeline Security Division (PSD) of the Transportation Security 
Administration (TSA), I am pleased to appear today to discuss TSA's 
role in protecting the security of our Nation's pipelines. I appreciate 
the subcommittee's interest in this important infrastructure issue.
          pipelines: a critical economic and security interest
    The United States relies on over 2.5 million miles of pipelines, 
operated by over 3,000 companies, for transporting petroleum and 
natural gas. This includes 2.2 million miles of natural gas 
distribution pipelines, 320,500 miles of natural gas transmission 
pipelines, and 168,000 miles of hazardous liquid transmission 
pipelines. This massive infrastructure delivers approximately two-
thirds of the petroleum products and nearly all of the natural gas used 
in the United States. In delivering oil and gas resources, our pipeline 
system provides jobs, heats homes, and allows businesses to operate 
efficiently. It is part of the life blood of the American economy, a 
vast network of underground transmission lines that provides energy to 
residential neighborhoods, commercial sites, and industrial centers 
across the country. Preserving the security of this system is critical 
to our economic well-being and to our National security.
    Because our Nation's pipeline system is of such critical 
importance, there is a risk that terrorists may target it with the goal 
of producing mass casualties and significant economic aftershocks. Less 
than 3 years ago, the Federal Bureau of Investigation (FBI) arrested 
members of a group allegedly plotting to blow up supply tanks and 
pipelines feeding fuel to the John F. Kennedy (JFK) International 
Airport in New York. The threat to pipelines is real and evolving, and 
we must remain ever vigilant to safeguard our Nation's pipeline system.
    TSA is dedicated to maintaining a robust, Nation-wide pipeline 
security program that instills public confidence in the reliability of 
the Nation's critical energy infrastructure, enhances public safety, 
and promotes the continued functioning of other critical infrastructure 
sectors that depend on secure and reliable sources of energy delivered 
by pipeline.
    TSA's role in pipeline security has its genesis in the Aviation and 
Transportation Security Act (ATSA), passed by Congress in the aftermath 
of the terrorist attacks on September 11, 2001. While aviation security 
is a central component of ATSA, the act also confers upon TSA primary 
responsibility for providing security in all modes of transportation, 
including pipelines. Congress added substantial new pipeline-specific 
mandates in the Implementing Recommendations of the 9/11 Commission Act 
of 2007 (9/11 Act). Pursuant to these authorities, and prioritizing 
activities based on risk, TSA promotes pipeline security through 
collaboration across the National pipeline network.
      promoting pipeline security through a collaborative network
    TSA maintains clear lines of communications and close working 
relationships with Government and industry partners to share critical 
information related to pipeline security. In particular, we are 
continuing to build upon our strong working relationship with the 
Department of Transportation's Pipeline and Hazardous Materials Safety 
Administration (PHMSA). TSA and PHMSA maintain virtually daily contact, 
including 24/7 communication and information sharing in the event of a 
pipeline incident. Through close coordination with PHMSA and vigorous 
outreach efforts to pipeline industry stakeholders, we have made 
substantial progress in defining and solidifying the relative roles of 
TSA and PHMSA in coordinating the protection of the pipeline system, 
with TSA having primary responsibility for security matters and PHMSA 
having primary responsibility for safety matters.
    TSA and PHMSA have worked in close collaboration on a number of 
initiatives designed to improve pipeline safety and security, such as 
the Pipeline Security and Incident Recovery Plan, the Transportation 
Systems Sector Specific Plan, and the Pipeline Security Modal Annex. 
Both agencies are active members in the Oil & Natural Gas (ONG) 
Government Coordination Council and the Pipeline Government 
Coordinating Council. Additionally, TSA and PHMSA participate in the 
ONG Critical Infrastructure Partnership Advisory Council in which 
Governmental agencies, pipeline industry stakeholders, and other 
security partners collaborate on pipeline and critical infrastructure 
security matters.
    In addition to its close collaboration with PHMSA, TSA works to 
maintain close relationships with State, local, international, and non-
Governmental stakeholders. For example, for the past 5 years, TSA and 
Natural Resources Canada have co-hosted an annual International 
Pipeline Security Forum to enhance Government and pipeline industry 
domain awareness and facilitate a dialogue on pipeline security issues. 
The conference is attended by officials from the U.S. and Canadian 
governments, pipeline associations, pipeline operators, and 
representatives from the security, intelligence, and law enforcement 
communities. The 2010 Forum is planned for October 28-29 in 
Philadelphia. The Forum provides an opportunity for pipeline industry, 
industry association, and Government representatives to exchange 
security information and best practices.
    Additionally, TSA leverages the DHS Homeland Security Information 
Network to share information between DHS and other Government, private 
sector, and non-Governmental organizations involved in pipeline 
antiterrorism and incident management activities.
                current initiatives to improve security
    TSA has undertaken a number of initiatives to improve the security 
of pipelines. I would like to highlight a few examples of our key 
programs:
    Pipeline Corporate Security Reviews: The centerpiece of TSA's 
pipeline security program is the Pipeline Corporate Security Review 
(PCSR). Begun in 2003, PCSRs have enabled TSA to build relationships 
with pipeline operators to assess their corporate security plans and 
programs and to provide them with recommendations for improvement. TSA 
has conducted PCSRs on all of the top 100 pipeline systems and is 
currently working on second-round reviews of these systems.
    Pipeline Employee Security Awareness Training: TSA developed a 30-
minute training CD for pipeline operators. The training covers topics 
such as security measures, awareness of vulnerabilities, potential 
threats, and targeting. To date, TSA has delivered training CDs to over 
300 companies, providing training to an estimated 61,000 pipeline 
employees.
    Pipeline Security Smart Practices: TSA's Pipeline Security Smart 
Practices reflect the lessons learned from PCSRs over several years. A 
qualitative and quantitative examination of data from PCSRs, coupled 
with literature research regarding pipeline security measures and 
consultation with the pipeline industry, identified smart practices 
operators can implement to promote an effective security program. This 
document is intended to assist operators in their security planning and 
the implementation of security measures to protect their facilities.
    Cross-Border Pipeline Assessments: Canada is one of the world's 
largest producers and exporters of energy and is the top source for 
U.S. oil and natural gas imports. In 2006, Canada exported to the 
United States 2.3 million barrels of oil and petroleum products per day 
(11 percent of the U.S. supply) and 3.6 trillion cubic feet of natural 
gas (16 percent of the U.S. supply); this energy is overwhelmingly 
moved by pipeline. TSA has been leading an in-depth analysis of cross-
border pipeline systems, as part of a team that included Natural 
Resources Canada and private industry. Assessment teams of Canadian and 
U.S. subject matter experts in pipeline operations, control systems, 
infrastructure interdependencies, and assault planning visit critical 
cross-border pipeline infrastructure, identify security gaps, and 
recommend protective measures to address them. Pipeline operators have 
used the assessment results to target improvements to the security of 
their systems. To date, joint U.S.-Canadian teams have reviewed six of 
the largest pipeline systems, or approximately 25 percent of the total 
cross-border systems.
                               conclusion
    TSA will continue its efforts to enhance the security of pipeline 
systems as directed by the 9/11 Act and other statutory and DHS 
requirements. Although TSA has been given clear authority and 
responsibility for the oversight and enforcement of pipeline security, 
we recognize that the success of this effort relies on the close 
coordination and on-going cooperation with industry and Government 
partners, including PHMSA. This coordination enhances TSA's ability to 
improve pipeline security in a manner that is safe and allows for the 
efficient flow of commerce. Thank you for the opportunity to appear 
before the subcommittee today. I would be happy to answer any questions 
that you may have.

    Mr. Carney. Thank you, Mr. Fox.
    Mr. Wiese, 5 minutes, please.

    STATEMENT OF JEFFREY WIESE, ASSOCIATE ADMINISTRATOR FOR 
   PIPELINE SAFETY, PIPELINE AND HAZARDOUS MATERIALS SAFETY 
          ADMINISTRATION, DEPARTMENT OF TRANSPORTATION

    Mr. Wiese. Thank you, Chairman Carney and Ranking Member 
Bilirakis; and thank you very much for the invitation to come 
down and speak to you today, appreciate it.
    I would like to tell you that I live in either Florida or 
Pennsylvania, but we are somewhere in between, we are in 
Virginia, so . . . Thanks for your invitation to speak today. 
My name is Jeff Wiese, Associate Administrator of the Pipeline 
and Hazardous Materials Safety Administration--that is a 
mouthful. We are the office of pipeline safety within PHMSA, 
that is a little easier to get a grip on. Our job is pipeline 
safety.
    We greatly appreciate this subcommittee's attention to our 
efforts to advance safety. These are the top priorities of 
Transportation Secretary Ray LaHood and PHMSA Administrator 
Cynthia Quarterman.
    As you have heard, the Nation's 2.5 million miles of 
natural gas and hazardous liquid pipelines are a significant 
part of our country's critical infrastructure, that are 
essential to our economy and our way of life. PHMSA bears a 
large responsibility in ensuring that any failure of these 
critical components does not impact the safety of our most 
important stakeholders, American citizens.
    Today, I will speak to the challenges we face in helping 
our communities live safely with the critical infrastructure 
upon which they depend.
    With over 30,000 miles of pipelines, Florida has a 
significant piece of this critical network right here within 
its borders. Our partnerships with State agencies like the 
Florida Public Service Commission help us deal with this vast 
majority of energy pipelines, especially those located in the 
high-risk areas such as natural gas distribution pipelines. In 
Florida, with the exception of these natural gas distribution 
pipelines, PHMSA is chartered with the inspection, enforcement, 
and safety assurance of pipelines, including anhydrous ammonia 
lines.
    Our record in pipeline safety is good. We have seen a 
number of serious pipeline accidents, those involving death or 
injury, decline by 30 percent for the 10-year period 1999 to 
2008. We believe this data is indicative that our strategy of 
enhancing our oversight is working. However, as was stated at 
the beginning of the hearing, our goal is and must remain no 
serious accidents, no harm to the public and hopefully no harm 
to any workers associated with them.
    One thing is clear, however--and thank you for bringing 
that up--the leading cause of accidents relating to pipelines 
in which people are hurt or killed is damage caused by third 
parties. This type of damage, which does include vandalism but 
also prominently features excavation into underground 
utilities, can either cause an immediate rupture of those 
facilities or damage that later grows to failure.
    Vandalism to pipeline facilities is something PHMSA takes 
very seriously. It not only causes severe safety risks to the 
party or parties directly involved, but it can dramatically 
affect people in surrounding communities and lead to drastic 
environmental consequences.
    When pipeline security situations such as vandalism arise, 
PHMSA turns to our Federal business partner, the Transportation 
Security Administration. PHMSA and TSA created, as you noted, 
an annex to an MOU to clarify each agency's unique 
responsibilities and to detail our numerous areas of 
cooperation. The effectiveness of our cooperation and 
coordination was put to the test here in Florida in 2007, as 
you know well, following a vandalism-related incident on 
anhydrous ammonia pipeline.
    As with any pipeline incident with security implications, 
PHMSA immediately held discussions with TSA to identify 
jurisdictional authority, roles and responsibilities, possible 
subsequent actions of each agency to remediate the situation.
    PHMSA was not only concerned about the vandalism activity 
itself, we investigated the company's response and evaluated 
the adequacy of their processes, training, and equipment that 
they needed to prepare for and respond to threats to their 
pipeline. We also examined the company's operations well beyond 
its emergency response issues.
    Our investigation found that the company's response 
procedures were inadequate in a number of areas and resulted in 
our issuance of an enforcement action, including a proposed 
civil penalty and a compliance order directing corrective 
actions.
    Our inspection of the operator and our participation in a 
subsequent multi-agency after-action review meeting and 
discussion with the Hillsborough emergency response community 
led to two different emergency response roundtables to discuss 
and share safety perspectives and best practices. The workshops 
further advanced each participant's knowledge of anhydrous 
ammonia and their understanding of how to appropriately respond 
to incidents should they occur.
    In addition to similar workshops, PHMSA has also helped 
communities deal with other pipeline safety issues for many 
years. At the top of our list remains educating the public and 
others about best practices to help prevent excavation damage 
to underground utilities, including the use of the call before 
you dig 8-1-1 number.
    Other ways that we have been trying to help communities 
include making safer land use decisions near pipelines through 
our Pipelines and Informed Planning Alliance, best practices 
compilation exercise as well as providing access at a community 
level to maps showing where the pipelines reside.
    Sometimes despite our best efforts, pipeline accidents 
still happen. In almost all incidents, it is our firefighters 
and other emergency officials who are first to arrive at the 
scene and they are the last line of defense in our communities. 
Through our long relationship with the National Association of 
State Fire Marshals and the International Association of Fire 
Chiefs, PHMSA has gained a better understanding of the needs of 
the fire service. From this partnership has sprung a pipeline 
emergencies curriculum for local emergency responders which is 
now being distributed and taught across the country. PHMSA has 
learned that leveraging partnerships with State and local 
officials can dramatically improve the effectiveness of our 
safety and prevention efforts.
    Thank you for the opportunity to represent the many 
dedicated public servants at PHMSA and to report on our 
pipeline safety program. We share your commitment to improving 
safety, environmental protection, and reliability of our 
Nation's pipeline system.
    This concludes my remarks. I will be happy to answer any 
questions at the appropriate time.
    [The statement of Mr. Wiese follows:]
                  Prepared Statement of Jeffrey Wiese
                             April 19, 2010
    Chairman Carney, Members of the subcommittee, thank you for the 
invitation to speak to each of you today. My name is Jeff Wiese, 
Associate Administrator of the Pipeline and Hazardous Materials Safety 
Administration's (PHMSA) pipeline safety program.
    We greatly appreciate this subcommittee's attention to our efforts 
in advancing safety, which is the top priority of Transportation 
Secretary Ray LaHood and PHMSA Administrator Cynthia Quarterman.
    As the only modal administration within the U.S. Department of 
Transportation (DOT) that doesn't involve moving people, PHMSA still 
bears a significant responsibility in ensuring the safety of our most 
important stakeholders, American citizens. Today, I will speak to the 
challenges we face in the coexistence of people and pipelines in our 
communities and the ways we are working to address safety risks.
    The Nation's pipelines, our energy highways, are a significant part 
of our country's critical infrastructure and are essential to our 
economy and our way of life. Over 2.5 million miles of natural gas and 
hazardous liquid pipelines crisscross the country transporting nearly 
two-thirds of the energy products we consume annually. Pipelines are by 
far the safest way to transport such enormous quantities of hazardous 
products over long distances in short time intervals.
                    safety: phmsa's primary mission
    Strong oversight has been an important strategy in strengthening 
pipeline safety. Ensuring the safety of the Nation's hazardous liquid 
and natural gas pipeline network is an enormous task. To assist us in 
this feat, PHMSA utilizes the help of its State agency partners, giving 
us the opportunity to employ over 400 additional inspectors to oversee 
81 percent of the infrastructure. State and Federal inspectors train 
together to enforce National regulatory pipeline safety standards. We 
aim to function as a coordinated workforce to safeguard the American 
public from the risks pipelines pose. With over 30,000 miles of 
pipelines in the State, Florida has a significant piece of this 
critical network right here within its borders. To assist us in our 
efforts, PHMSA has an agreement with the Florida Public Service 
Commission to oversee intrastate natural gas pipelines--those that 
provide gas to homes and businesses. For all other pipelines in 
Florida, including anhydrous ammonia lines, PHMSA is chartered with the 
inspection, enforcement, and safety assurance of pipelines. The 
Federal-State partnership is a crucial component to our safety strategy 
and our ultimate success.
    Over the years, PHMSA has taken a hard look at incidents, their 
causes, and what can be done to prevent them. One thing is clear--the 
leading cause of incidents in which people are hurt or killed is a 
result of third-party damages. This type of damage, which includes 
vandalism, causes an immediate rupture or damage that later grows to 
failure. Third-party damage most often occurs on natural gas 
distribution systems located in areas where people live and work, but 
it also poses a significant threat to larger pipelines such as 
anhydrous ammonia, natural gas, crude oil, and other hazardous liquid 
pipelines.
    Our record in pipeline safety is good. We have seen the number of 
serious pipeline accidents--those involving death or injury--decline by 
an average of 30 percent for the 10-year period of 1999-2008. In 
Florida, the State has seen an average of one serious pipeline accident 
a year over the past 5 years compared to a National 5-year average of 
41. This data is proof that our strategy of enhancing our oversight is 
working. Nevertheless, we recognize that one serious pipeline accident 
per year in Florida is still one too many and our ultimate goal is 
zero.
             addressing the november 2007 pipeline incident
    Throughout the country anhydrous ammonia is commonly used as a 
chemical compound for agricultural fertilizer because of its rich 
nitrogen composition. The product is also used as an industrial 
refrigerant for agricultural retailers.
    The United States contains nearly 4,500 miles of anhydrous ammonia 
transmission pipelines and PHMSA is the primary safety regulator for 
all of them. There have been 53 reported accidents on anhydrous ammonia 
pipelines since 2002 and of these, 15 percent were attributed to 
vandalism.
    As we have seen here in Florida, occurrences with anhydrous ammonia 
pipelines can result in very tragic consequences. Since the year 2000, 
Tampa Bay Pipeline Company (TBPC) experienced three incidents involving 
its anhydrous ammonia pipeline, two of which were caused by vandalism. 
The most recent incident occurred on November 12, 2007 in which three 
teenagers drilled a hole into the pipe, immediately releasing product 
and a vapor cloud into the surrounding area, causing serious injuries 
to one of the teens and requiring the hospitalization of several fire 
fighters. In addition to these consequences, 300 people were evacuated 
from their homes as a safety precaution.
    Vandalism to pipeline facilities is considered a deliberate act of 
sabotage and is therefore a security-related issue. To ensure security-
related issues concerning pipelines are adequately addressed, PHMSA 
entered into an Annex to a Memorandum of Understanding with the 
Transportation Security Administration (TSA) acknowledging TSA's lead 
role in transportation security. Both agencies possess a shared 
commitment to a systems risk-based approach and to the development of 
practical solutions. The Annex recognizes that each agency brings core 
competencies, legal authority, resources, and expertise to this shared 
mission of protecting the public, but that the ultimate authority for 
pipeline security lies with the TSA.
    As with any pipeline incident with security implications, PHMSA 
immediately held discussions with the TSA to identify jurisdictional 
authority, roles, responsibilities, and possible subsequent actions of 
each agency to remediate the situation following the November 2007 TBPC 
failure.
    We investigated the company's response and evaluated the adequacy 
of their processes, training, and equipment to prepare for and respond 
to threats to their pipeline. Pipeline operators are required by law to 
have emergency procedures, conduct emergency training, and maintain 
liaison with local public officials and emergency responders. In 
addition, to augment our understanding of the company's response 
activities, PHMSA participated in a multi-agency ``After Action'' 
review meeting with emergency responders, law enforcement, Florida 
transportation and environmental management agencies, local school 
officials, and the media. Finally, PHMSA completed a comprehensive 
follow-up inspection, examining TBPC well beyond its emergency response 
issues.
    When examining operator compliance, PHMSA looks for more than just 
fulfillment of routine maintenance requirements. We expect operators to 
incorporate all Federal and State regulations, including training 
staff, educating the public, and installing effective emergency 
response procedures.
    During our investigation of the TBPC accident, we found the 
company's response procedures were inadequate in a number of areas 
including public awareness, record-keeping, personnel qualification, 
liaison with public officials, emergency response procedures, and 
training. As a result of our investigation, PHMSA issued TBPC a Notice 
of Probable Violation which included a Proposed Civil Penalty of 
$398,000 and a Proposed Compliance Order to restore safety assurance 
and readiness within its pipeline operations.
                  keeping communities ready to respond
    Looking at the TBPC incident and holding discussions with the 
Hillsborough County emergency response community, PHMSA decided to 
increase its efforts in promoting anhydrous ammonia transportation 
safety in the Tampa area. In late August 2008, PHMSA hosted its 
Emergency Response to Anhydrous Ammonia Transportation Incidents 
Roundtable before an audience of emergency response management 
personnel, anhydrous ammonia industry stakeholders, and transportation 
industry representatives to discuss and share safety perspectives and 
best practices. The workshop further advanced the emergency response 
community's knowledge of anhydrous ammonia and their understanding of 
how to appropriately respond to incidents should they occur. In 
addition, PHMSA worked with the TSA to hold an additional invitation-
only workshop for law enforcement and security agencies involved in 
planning for Super Bowl activities in the Tampa area. The law 
enforcement community was able to benefit from discussions about 
pipeline security and threats and vulnerabilities concerning ammonia 
transportation.
    Damage Prevention.--Helping communities deal with pipeline safety 
has always been a priority of PHMSA. At the top of our list remains 
using the best information available to guide our excavation damage 
prevention efforts. Working with the Common Ground Alliance and all the 
underground damage prevention stakeholders, we have supported educating 
the public on the importance of calling the National 811 phone number, 
to help prevent damage to pipelines during an excavation. Pipeline 
operators believe that this number is effective in preventing damage to 
their facilities, and many are voluntarily adding this number to their 
permanent pipeline markers. In addition, we target for assistance those 
States whose risk of construction-related damage is the greatest or 
those States in which the potential for improvement is real. We are 
putting representatives in the field to help explain the benefits of 
effective damage prevention and have invested in research to improve 
excavation location and communications technology so that the one call 
notification system is more accurate, works faster, and contributes to 
a safer work place.
    Guiding Safe Land Use Decisions.--There are other ways to help 
communities live safely with pipelines. One of the most important of 
these is guiding communities to make safe land use decisions. Building 
on the model of the Common Ground Alliance, we have called stakeholders 
together in a similar model, called Pipeline and Informed Planning 
Alliance (PIPA). This is a follow-up activity to a mandate of the 
Pipeline Safety Improvement Act (PSIA) of 2002, and results from a 
recommendation by the National Academy of Science's Transportation 
Research Board.
    National Pipeline Mapping System.--A companion effort is helping 
communities understand where pipelines are located, who owns and 
operates them, and what other information is available for community 
planning. Following the passage of the PIPES Act, PHMSA worked with the 
Department of Homeland Security/Transportation Security Administration 
to resolve concerns about security sensitive information. Vital 
information that communities need for land use, environmental and 
emergency planning around pipelines is publicly available through 
PHMSA's National Pipeline Mapping System (NPMS). We continue to work 
with States, industry and other stakeholders to make the NPMS 
information more accurate and more useful. Additionally, we have 
completed a review of thousands of operators' public education programs 
and provide operators with feedback.
    PHMSA works hard to provide communities with the information they 
need to make informed decisions and live safely with pipelines, but 
like the ammonia incident, accidents can and do still happen. In almost 
all instances, it is our firefighters and other emergency officials who 
are first to arrive at the scene of a dangerous pipeline incident. In 
light of this, we support the development of training material and 
educational seminars to help educate emergency responders in how to 
safely respond to emergency pipeline situations.
    Emergency Responder Training Materials.--Through our relationship 
with the National Association of State Fire Marshals (NASFM), PHMSA has 
gained a better understanding of the informational needs of the fire 
service and utilized NASFM State contacts to conduct outreach and 
training for local emergency responders. Our Pipeline Emergencies 
training curriculum and course materials offers a comprehensive, 
integrated emergency response training program designed to teach 
emergency responders and pipeline industry personnel to safely respond 
and effectively manage pipeline incidents. In addition, PHMSA is 
providing $500,000 to NASFM this year to support the update of Pipeline 
Emergencies, including new hardcopy training books and DVD material 
that can be distributed to local fire service personnel. The training 
material will also include new sections on transportation of 
alternative fuels via pipelines and how to respond to ethanol pipeline 
incidents.
                               conclusion
    As you can see, our expanded partnerships with State and local 
officials are helping us to strengthen the effectiveness of our safety 
and prevention efforts.
    PHMSA very much appreciates the opportunity to report on our 
pipeline safety program. We share your commitment to improving safety, 
environmental protection, and reliability of our Nation's pipeline 
system.
    Thank you. I would be pleased to answer any questions you have.

    Mr. Carney. Thank you, Mr. Wiese.
    Dr. Parfomak now for 5 minutes, please.

    STATEMENT OF PAUL W. PARFOMAK, SPECIALIST IN ENERGY AND 
  INFRASTRUCTURE POLICY, CONGRESSIONAL RESEARCH SERVICE, THE 
                      LIBRARY OF CONGRESS

    Mr. Parfomak. Good morning, Chairman Carney and Ranking 
Member Bilirakis. My name is Paul Parfomak, Specialist in 
Energy and Infrastructure Policy at the Congressional Research 
Service. CRS appreciates the opportunity to testify here today 
about the Federal role in pipeline security. This testimony 
focuses on the evolution and current status of key Federal 
agency responsibilities. In accordance with our enabling 
statutes, CRS takes no position on any related legislation.
    As has been stated, nearly half a million miles of 
hazardous liquids and natural gas transmission pipeline cross 
the United States. While a fundamentally safe means of 
transport, pipelines have been a focus of terrorist activity in 
North America. Recent incidents include the 2007 JFK 
International incident and the conviction of a U.S. citizen 
trying to conspire with al-Qaeda to attack the Trans-Alaska 
pipeline system. To date, there have been no known terrorist 
attacks on U.S. pipelines, but the threat of such attacks is 
credible.
    Under Federal statutes, the Department of Transportation is 
given primary authority to regulate key aspects of interstate 
pipeline safety. To fulfill this mission, the DOT employs 
approximately 200 pipeline safety staff, including field 
inspectors. The Department also delegates authority to its 
State pipeline safety offices where over 400 State pipeline 
safety inspectors are available.
    The Clinton administration added to the DOT a lead 
responsibility for pipeline security in 1998. In 2001, 
President Bush placed the DOT's pipeline security authority 
within the newly established Transportation Security 
Administration, which was transferred to the new Department of 
Homeland Security the following year.
    Given the important roles that both the DOT and TSA have 
played in pipeline security, Congress has long been concerned 
about the appropriate division of pipeline security authority 
between the two agencies. In 2006, the agency signed an 
agreement to delineate clear lines of authority and 
responsibility and promote communications, efficiency, and non-
duplication of effort. The agencies subsequently developed a 
multi-year action plan to execute key elements of the Federal 
pipeline security program. Although the DOT and TSA jointly 
developed this action plan, a DOT Inspector General assessment 
in 2008 was not satisfied with it, stating that further actions 
needed to be taken with a sense of urgency because the current 
situation was far from an end-state for enhancing U.S. pipeline 
security. According to TSA, cooperation with the DOT has 
improved drastically since the release of the Inspector General 
report. The two agencies maintain daily contact, share 
information in a timely manner, and collaborate on security 
guidelines and incident response planning.
    While TSA and the DOT seem to have improved their 
cooperation in pipeline security, key questions remain 
regarding what this cooperation entails and the on-going roles 
of the two agencies. In this context, two specific issues may 
warrant further Congressional consideration: (1) TSA's pipeline 
security resources, and (2) potential pipeline security 
regulations.
    TSA's pipeline budget currently funds 13 full-time-
equivalent staff to conduct pipeline security inspections, 
maintain TSA's pipeline asset database, support TSA's risk 
models and develop new security standards. At this staffing 
level, TSA's pipelines division has limited field presence for 
the inspection and possible enforcement under either the 
current voluntary standards or any future regulations.
    TSA's handful of inspection staff stands in contrast to the 
hundreds of inspection staff available to the DOT at the 
Federal and State levels. Given this disparity, it is logical 
to consider whether DOT's field staff, who are charged with 
inspecting the same pipeline systems as TSA, could somehow be 
deployed to help fulfill the Nation's pipeline security 
objectives.
    Federal pipeline security activities to date have relied 
upon voluntary industry compliance. However, the 9/11 
Commission Act of 2007 directs TSA to promulgate pipeline 
security regulations and carry out necessary inspection and 
enforcement if the agency determines that regulations are 
appropriate. Unlike maintaining voluntary standards, developing 
pipeline security regulations would involve a complex and 
potentially contentious rulemaking process. Should Congress 
choose to mandate such regulations, it is not clear that TSA's 
pipeline security division as currently configured would be up 
to the task. By comparison, the DOT has a history of 
developing, enforcing, and updating extensive pipeline safety 
regulations. Notwithstanding this well-established regulatory 
infrastructure at the DOT, given the division of authority 
between the agencies, it is not clear that TSA could draw upon 
those regulatory capabilities if they should be needed.
    In conclusion, while the DOT and TSA have distinct 
missions, pipeline safety and security are intertwined. As 
oversight of the Federal role in pipeline security continues, 
questions may be raised concerning the relationship between TSA 
and the DOT with respect to pipeline security. In particular, 
given the limited staff in TSA's pipeline security division and 
the comparatively large pipeline safety staff in the DOT, 
Congress may consider whether staff resources across both 
agencies are optimally aligned. Pipeline safety and security 
necessarily involve many groups--Federal agencies, State 
agencies, pipeline industry associations, large and small 
pipeline operators, and local communities. Reviewing how these 
groups work together could be an oversight challenge for 
Congress.
    Thank you for the opportunity to appear before the 
committee today. I look forward to any questions you may have.
    [The statement of Dr. Parfomak follows:]
                 Prepared Statement of Paul W. Parfomak
                             April 19, 2010
    Good morning Chairman Carney and Ranking Member Bilirakis. My name 
is Paul Parfomak, Specialist in Energy and Infrastructure Policy at the 
Congressional Research Service (CRS). CRS appreciates the opportunity 
to testify here today about the Federal role in pipeline security. At 
the committee's request, this testimony focuses on the evolution and 
current status of key agency responsibilities. In accordance with our 
enabling statutes, CRS takes no position on any related legislation.
                              introduction
    Nearly half a million miles of hazardous liquids and natural gas 
transmission pipeline crisscross the United States. These pipelines are 
integral to U.S. energy supply and have vital links to other critical 
infrastructure, such as power plants, airports, and military bases. 
While an efficient and fundamentally safe means of transport, many 
pipelines carry volatile, flammable, or toxic materials with the 
potential to cause public injury and environmental damage. The Nation's 
pipeline networks are also widespread, running alternately through 
remote and densely populated regions; consequently, these systems are 
vulnerable to accidents and terrorist attack.
    Congress has recently passed the Pipeline Safety Improvement Act of 
2006 and the Implementing Recommendations of the 9/11 Commission Act of 
2007, to improve pipeline safety and security practices. The 111th 
Congress is overseeing the implementation of these acts and considering 
new legislation related to the Nation's pipeline network. Recent 
legislative proposals include the Transportation Security 
Administration Authorization Act (H.R. 2200), which would mandate a new 
Federal pipeline security study regarding the roles and 
responsibilities of the Department of Homeland Security and the 
Department of Transportation with respect to pipeline security.
                        pipeline security risks
    Pipelines are vulnerable to vandalism and terrorist attack with 
firearms, with explosives, or by other physical means. Some pipelines 
may also be vulnerable to ``cyber-attacks'' on computer control systems 
or attacks on electricity grids or telecommunications networks.\1\ Oil 
and natural gas pipelines have been a recent focus of terrorist 
activity overseas and in North America. For example, in January 2006, 
Federal authorities reportedly acknowledged the discovery of a detailed 
posting on a web site purportedly linked to al-Qaeda that encouraged 
attacks on U.S. pipelines, using weapons or hidden explosives.\2\ In 
June, 2007, the U.S. Department of Justice arrested members of a 
terrorist group planning to attack jet fuel pipelines and storage tanks 
at the John F. Kennedy (JFK) International Airport in New York.\3\ A 
Mexican rebel group detonated multiple bombs along Mexican oil and 
natural gas pipelines in July and September, 2007.\4\ In November 2007 
a U.S. citizen was convicted of trying to conspire with al-Qaeda to 
attack the Trans Alaska Pipeline System and a major natural gas 
pipeline in the eastern United States.\5\ Natural gas pipelines in 
British Columbia, Canada were bombed six times between October 2008 and 
July 2009 by unknown perpetrators.\6\ To date, there have been no known 
al-Qaeda attacks on U.S. pipelines, but the threat of such attacks 
remains credible.
---------------------------------------------------------------------------
    \1\ J.L. Shreeve, ``Science & Technology: The Enemy Within,'' The 
Independent. London, UK, May 31, 2006, p. 8.
    \2\ W. Loy, ``Web Post Urges Jihadists to Attack Alaska Pipeline,'' 
Anchorage Daily News, January 19, 2006.
    \3\ U.S. Dept. of Justice, ``Four Individuals Charged in Plot to 
bomb John F. Kennedy International Airport,'' Press release, June 2, 
2007.
    \4\ Reed Johnson, ``Six Pipelines Blown Up in Mexico,'' Los Angeles 
Times, September 11, 2007. p A-3.
    \5\ U.S. Attorney's Office, Middle District of Pennsylvania, ``Man 
Convicted of Attempting to Provide Material Support to Al-Qaeda 
Sentenced to 30 Years' Imprisonment,'' Press release, November 6, 2007; 
A. Lubrano and J. Shiffman, ``Pa. Man Accused of Terrorist Plot,'' 
Philadelphia Inquirer, February 12, 2006, p. A1.
    \6\ Elise Stolte, ``EnCana Puts Record $1M on Bomber's Head,'' 
Edmonton Journal, July 31, 2009.
---------------------------------------------------------------------------
    Although accidental releases from pipelines in the United States, 
on the whole, cause few annual fatalities compared to other product 
transportation modes, uncontrolled or intentional pipeline releases 
could be catastrophic in specific cases. For example, a 1999 gasoline 
pipeline accident in Bellingham, Washington, killed two children and an 
18-year-old man, and caused $45 million in damage to a city water plant 
and other property. In 2000, a natural gas pipeline accident near 
Carlsbad, New Mexico, killed 12 campers, including four children.\7\ In 
2006, corroded pipelines on the North Slope of Alaska leaked over 
200,000 gallons of crude oil in an environmentally sensitive area. In 
2007, the release of anhydrous ammonia from a pipeline in Hillsborough 
County, Florida due to vandalism, severely burned the perpetrator and 
required an emergency evacuation of the surrounding community.\8\ Such 
accidents have generated substantial scrutiny of pipeline regulation 
and increased State and community activity related to pipeline safety 
and security.\9\
---------------------------------------------------------------------------
    \7\ National Transportation Safety Board, Pipeline Accident Report 
PAR-03-01, February 2003.
    \8\ Nicole Hutcheson and Abbie Vansickle, ``Better Security Urged 
For Ammonia Pipeline,'' St. Petersburg Times, January 18, 2008.
    \9\ See, for example: Bellingham Herald Editorial Board, ``Citizens 
Need Panel To Monitor Pipeline Safety,'' Bellingham Herald (WA), 
January 24, 2010; Janet Zink, ``Fueling the Resistance,'' St. 
Petersburg Times, December 16, 2007; W. Loy, ``Slope Mayor Questions 
Leak Detection,'' Anchorage Daily News, March 14, 2006; J. Nesmith and 
R. K. M. Haurwitz, ``Pipelines: The Invisible Danger,'' Austin 
American-Statesman, July 22, 2001.
---------------------------------------------------------------------------
              the early federal role in pipeline security
    The Natural Gas Pipeline Safety Act of 1968 and the Hazardous 
Liquid Pipeline Act of 1979 are two of the key early acts establishing 
the Federal role in pipeline operations. Under both statutes, the 
Department of Transportation (DOT) is given primary authority to 
regulate key aspects of interstate pipeline safety: Design, 
construction, operation and maintenance, and spill response planning. 
To fulfill this mission, the DOT employs approximately 200 full-time 
equivalent pipeline safety staff, including field inspectors, based in 
Washington, DC, Atlanta, Kansas City, Houston, and Denver.\10\ In 
addition to its own staff, the DOT delegates authority to State 
pipeline safety offices for those sections of interstate pipelines 
within their boundaries.\11\ Over 400 State pipeline safety inspectors 
are available in 2010.
---------------------------------------------------------------------------
    \10\ U.S. Office of Management and Budget, Budget of the United 
States Government, Fiscal Year 2011: Appendix, February 2010, p. 989.
    \11\ 49 U.S.C. 601. States may recover up to 50% of their costs for 
these programs from the Federal Government.
---------------------------------------------------------------------------
    Presidential Decision Directive 63, issued by the Clinton 
administration in 1998, assigned to the DOT lead responsibility for 
pipeline security as well.\12\ Under this authority, after the 
terrorist attacks of September 11, 2001, the DOT conducted a 
vulnerability assessment to identify critical pipeline facilities and 
worked with industry groups and State pipeline safety organizations to 
assess the industry's readiness to prepare for, withstand, and respond 
to a terrorist attack.\13\ Together with the Department of Energy and 
State pipeline agencies, the DOT promoted the development of consensus 
standards for security measures tiered to correspond with the five 
levels of threat warnings issued by the Office of Homeland 
Security.\14\ The DOT also developed protocols for inspections of 
critical facilities to ensure that operators implemented appropriate 
security practices. To convey emergency information and warnings, the 
DOT established a variety of communication links to key staff at the 
most critical pipeline facilities throughout the country. The DOT also 
began identifying near-term technology to enhance deterrence, 
detection, response, and recovery, and began seeking to advance public 
and private sector planning for response and recovery.\15\
---------------------------------------------------------------------------
    \12\ Presidential Decision Directive 63, Protecting the Nation's 
Critical Infrastructures, May 22, 1998.
    \13\ Research and Special Programs Administration (RSPA), RSPA 
Pipeline Security Preparedness, December 2001.
    \14\ Ellen Engleman, Administrator, Research and Special Programs 
Administration (RSPA), statement before the Subcommittee on Energy and 
Air Quality, House Energy and Commerce Committee, March 19, 2002.
    \15\ Ellen Engleman, Administrator, Research and Special Programs 
Administration (RSPA), statement before the Subcommittee on Highways 
and Transit, House Transportation and Infrastructure Committee, 
February 13, 2002.
---------------------------------------------------------------------------
    In September 2002, the DOT circulated formal guidance developed in 
cooperation with the pipeline industry associations defining the 
agency's security program recommendations and implementation 
expectations. This guidance recommended that operators identify 
critical facilities, develop security plans consistent with prior trade 
association security guidance, implement these plans, and review them 
annually.\16\ While the guidance was voluntary, the DOT expected 
compliance and informed operators of its intent to begin reviewing 
security programs within 12 months, potentially as part of more 
comprehensive safety inspections.\17\
---------------------------------------------------------------------------
    \16\ James K. O'Steen, Research and Special Programs Administration 
(RSPA), Implementation of RSPA Security Guidance, presentation to the 
National Association of Regulatory Utility Commissioners, February 25, 
2003.
    \17\ Office of Pipeline Safety (OPS), personal communication, June 
10, 2003.
---------------------------------------------------------------------------
                 transferring pipeline security to tsa
    In 2001, President Bush signed the Aviation and Transportation 
Security Act, placing the DOT's pipeline security authority within the 
department's newly established Transportation Security Administration 
(TSA). The act specified for TSA a range of duties and powers related 
to general transportation security, such as intelligence management, 
threat assessment, mitigation, security measure oversight and 
enforcement, among others. President Bush subsequently signed the 
Homeland Security Act of 2002 transferring TSA to the newly established 
Department of Homeland Security (DHS). In December 2003, President Bush 
issued Homeland Security Presidential Directive 7 maintaining DHS as 
the lead agency for pipeline security and instructing the DOT to 
``collaborate in regulating the transportation of hazardous materials 
by all modes (including pipelines).''
    In 2003, among other pipeline-related initiatives, TSA initiated 
its on-going Corporate Security Review (CSR) program as the centerpiece 
of its pipeline security activities. Under the CSR program, the agency 
visits the largest pipeline and natural gas distribution operators to 
review their security plans and inspect their facilities. During the 
reviews, TSA evaluates whether each company is following the intent of 
the DOT's security guidance as updated by TSA. TSA has completed CSR's 
covering all of the largest 100 pipeline systems (84% of total U.S. 
energy pipeline throughput) and had completed revisits of 41 systems 
determined to be at highest security risk. The agency plans to conduct 
12 additional reviews in 2010.\18\ According to TSA, recent results 
indicate that the majority of U.S. pipeline systems ``do a good job in 
regards to pipeline security'' although there are areas in which 
pipeline security can be improved.\19\ Past corporate security reviews 
have identified inadequacies in some company security programs such as 
not updating security plans, lack of management support, poor employee 
involvement, inadequate threat intelligence, and employee apathy or 
error.\20\
---------------------------------------------------------------------------
    \18\ Transportation Security Administration, personal 
communication, February 2, 2010.
    \19\ Ibid.
    \20\ Mike Gillenwater, TSA, ``Pipeline Security Overview,'' 
Presented to the Alabama Public Service Commission Gas Pipeline Safety 
Seminar, Montgomery, AL, December 11, 2007.
---------------------------------------------------------------------------
    In January, 2007 testimony before Congress, the TSA Administrator 
stated that the agency intended to conduct a pipeline infrastructure 
study to identify the ``highest risk'' pipeline assets, building upon 
such a list developed through the CSR program. He also stated that the 
agency would use its on-going security review process to determine the 
future implementation of baseline risk standards against which to set 
measurable pipeline risk reduction targets.\21\ Provisions in the 
Implementing Recommendations of the 9/11 Commission Act of 2007 
required TSA, in consultation with the DOT, to develop a plan for the 
Federal Government to provide increased security support to the ``most 
critical'' pipelines at high or severe security alert levels and when 
there is specific security threat information relating to such pipeline 
infrastructure. The act also required a recovery protocol plan in the 
event of an incident affecting the interstate and intrastate pipeline 
system. According to TSA, a draft plan has been completed and is 
currently under review in the TSA/DHS clearance process.\22\
---------------------------------------------------------------------------
    \21\ Hawley, Kip, Asst. Secretary, Dept. of Homeland Security, 
testimony before the Senate Committee on Commerce, Science, and 
Transportation hearing on Federal Efforts for Rail and Surface 
Transportation Security, January 18, 2007.
    \22\ Transportation Security Administration, personal 
communication, February 2, 2010.
---------------------------------------------------------------------------
                  the relationship between dot and tsa
    Congress has long had concerns about the appropriate division of 
pipeline security authority between the DOT and TSA.\23\ Both the DOT 
and TSA have played important roles in the Federal pipeline security 
program, with TSA the designated lead agency since 2002. In 2004, the 
DOT and DHS entered into a memorandum of understanding (MOU) concerning 
their respective security roles in all modes of transportation. The MOU 
notes that DHS has the primary responsibility for transportation 
security with support from the DOT, and establishes a general framework 
for cooperation and coordination. On August 9, 2006, the departments 
signed an annex ``to delineate clear lines of authority and 
responsibility and promote communications, efficiency, and 
nonduplication of effort through cooperation and collaboration between 
the parties in the area of transportation security.''\24\
---------------------------------------------------------------------------
    \23\ For example, see Hon. William J. Pascrell, Jr., statement at 
the House Committee on Transportation and Infrastructure, Subcommittee 
on Highways, Transit, and Pipelines, hearing on Pipeline Safety, March 
16, 2006.
    \24\ Transportation Security Admin. and Pipelines and Hazardous 
Materials Safety Admin., ``Transportation Security Administration and 
Pipelines and Hazardous Materials Safety Administration Cooperation on 
Pipelines and Hazardous Materials Transportation Security,'' August 9, 
2006.
---------------------------------------------------------------------------
    In January, 2007, DOT officials testified before Congress that the 
agency had established a joint working group with TSA ``to improve 
interagency coordination on transportation security and safety matters, 
and to develop and advance plans for improving transportation 
security,'' presumably including pipeline security.\25\ According to 
TSA, the working group developed a multi-year action plan specifically 
delineating roles, responsibilities, resources, and actions to execute 
11 program elements: identification of critical infrastructure/key 
resources and risk assessments; strategic planning; developing 
regulations and guidelines; conducting inspections and enforcement; 
providing technical support; sharing information during emergencies; 
communications; stakeholder relations; research and development; 
legislative matters; and budgeting.\26\ Nonetheless, a DOT Inspector 
General (IG) assessment published May 2008 was not satisfied with this 
plan. The IG report states that, although the agencies
---------------------------------------------------------------------------
    \25\ Barrett, T.J., Administrator, Pipeline and Hazardous Materials 
Safety Administration (PHMSA), Testimony before the Senate Committee on 
Commerce, Science, and Transportation hearing on Federal Efforts for 
Rail and Surface Transportation Security, January 18, 2007.
    \26\ Transportation Security Administration, Pipeline Security 
Division, personal communication, July 6, 2007.

``have taken initial steps toward formulating an action plan to 
implement the provisions of the pipeline security annex . . . further 
actions need to be taken with a sense of urgency because the current 
situation is far from an `end state' for enhancing the security of the 
Nation's pipelines.''\27\
---------------------------------------------------------------------------
    \27\ U.S. Dept. of Transportation, Office of Inspector General, 
Actions Needed to Enhance Pipeline Security, Pipeline and Hazardous 
Materials Safety Administration, Report No. AV-2008-053, May 21, 2008, 
p. 3.

    The assessment recommended that the DOT and TSA finalize and 
execute their security annex action plan, clarify their respective 
roles, and jointly develop a pipeline security strategy that maximizes 
the effectiveness of their respective capabilities and efforts.\28\ 
According to TSA, working with the DOT ``improved drastically'' after 
the release of the IG report; the two agencies began maintaining daily 
contact, sharing information in a timely manner, and collaborating on 
security guidelines and incident response planning.\29\ TSA and the DOT 
``continue to enjoy a 24/7 communication and coordination relationship 
in regards to all pipeline security and safety incidents.''\30\
---------------------------------------------------------------------------
    \28\ Ibid. pp. 5-6.
    \29\ Transportation Security Administration, personal 
communication, February 2, 2010.
    \30\ TSA, Pipeline Security Division, personal communication, July 
6, 2007.
---------------------------------------------------------------------------
                           key policy issues
    While TSA and the DOT appear to have improved their cooperation 
under the terms of the pipeline security annex, key questions remain 
regarding what this cooperation entails and the on-going roles of the 
two agencies with respect to pipeline security. In this context, two 
specific issues may warrant further Congressional consideration: (1) 
TSA's pipeline security resources, and (2) potential pipeline security 
regulations.
TSA Pipeline Security Resources
    Some Members of Congress have been critical in the past of TSA's 
funding of non-aviation security activities, including pipeline 
activities. For example, as one Member remarked in 2005, ``aviation 
security has received 90% of TSA's funds and virtually all of its 
attention. There is simply not enough being done to address . . . 
pipeline security.''\31\ With respect to pipeline security funding, 
little may have changed since 2005. The President's fiscal year 2011 
budget request for DHS does not include a separate line item for TSA's 
pipeline security activities. The budget request does include a $137.6 
million line item for ``Surface Transportation Security,'' which 
encompasses security activities in non-aviation transportation modes, 
including pipelines.\32\ TSA's pipeline division has traditionally 
received from the agency's general operational budget an allocation for 
routine operations, travel, and outreach. The budget currently funds 13 
full-time equivalent staff to conduct pipeline security inspections, 
maintain TSA's pipeline asset database, support TSA's multi-modal risk 
models, develop new security standards, and issue regulations, as 
required.\33\
---------------------------------------------------------------------------
    \31\ Sen. Daniel K. Inouye, opening statement before the Senate 
Committee on Commerce, Science, and Transportation, hearing on the 
President's fiscal year 2006 Budget Request for the Transportation 
Security Administration (TSA), February 15, 2005.
    \32\ U.S. Office of Management and Budget, Budget of the United 
States Government, Fiscal Year 2011: Appendix, February 2010, p. 526.
    \33\ Transportation Security Administration, Pipeline Security 
Division, personal communication, February 2, 2010.
---------------------------------------------------------------------------
    At its current staffing level, TSA's pipelines division has limited 
field presence for inspections and possible enforcement under the 
current voluntary standards or future regulations. In conducting a 
pipeline corporate security review, for example, TSA typically sends 
one to three staff to hold a 3- to 4-hour interview with the operator's 
security representatives followed by a visit to only one or two of the 
operator's pipeline assets.\34\ There is concern by some that the 
agency's CSRs as currently structured may not allow for rigorous 
security plan verification nor a credible threat of enforcement, so 
operator compliance with security guidance may be inadequate. The 
limited number of CSR's the agency can complete in a year is also a 
concern to some, even within TSA. According to a 2009 Government 
Accountability Office report, ``TSA's pipeline division stated that 
they would like more staff in order to conduct its corporate security 
reviews more frequently,'' in part because other staff responsibilities 
such as ``analyzing secondary or indirect consequences of a terrorist 
attack and developing strategic risk objectives required much time and 
effort.''\35\
---------------------------------------------------------------------------
    \34\ Department of Homeland Security, ``Intent to Request Approval 
from OMB of One New Public Collection of Information: Pipeline 
Corporate Security Review,'' 74 Federal Register 42086, August 20, 
2009.
    \35\ U.S. Government Accountability Office, ``Transportation 
Security: Comprehensive Risk Assessments and Stronger Internal Controls 
Needed to Help Inform TSA Resource Allocation,'' GAO-09-492, March 
2009, p. 30, http://www.gao.gov/new.items/d09492.pdf.
---------------------------------------------------------------------------
    TSA's handful of field inspection staff stands in contrast to the 
hundreds of inspection staff available to the DOT at the Federal and 
State levels. Given this disparity, it is logical to consider whether 
DOT's field staff, who are charged with inspecting the same pipeline 
systems as TSA, could somehow be deployed to help fulfill the Nation's 
pipeline security objectives. The question also arises whether having 
separate inspections of the same pipeline systems for safety and 
security may be inherently inefficient, or may miss an opportunity for 
more frequent or thorough examination of pipeline security.
Pipeline Security Regulations
    Federal pipeline security activities to date have relied upon 
voluntary industry compliance with DOT security guidance and TSA 
security best practices. By initiating this voluntary approach in 2002, 
DOT sought to speed adoption of security measures by industry and avoid 
the publication of sensitive security information (e.g., critical asset 
lists) that would normally be required in public rulemaking.\36\ 
However, the 9/11 Commission Act of 2007 directs TSA to promulgate 
pipeline security regulations and carry out necessary inspection and 
enforcement--if the agency determines that regulations are appropriate. 
Addressing this issue, the 2008 IG report states that ``TSA's current 
security guidance . . . remains unenforceable unless a regulation is 
issued to require industry compliance.\37\
---------------------------------------------------------------------------
    \36\ GAO, Pipeline Security and Safety: Improved Workforce Planning 
and Communication Needed, GAO-02-785, August 2002, p. 22.
    \37\ U.S. Dept. of Transportation, Office of Inspector General, May 
21, 2008, p. 6.
---------------------------------------------------------------------------
    Although TSA's fiscal year 2005 budget justification stated that 
the agency would ``issue regulations where appropriate to improve the 
security of the [non-aviation transportation] modes,'' the agency has 
not done so for pipelines, and is not currently working on such 
regulations.\38\ The pipelines industry has expressed concern that new 
security regulations and related requirements may be ``redundant'' and 
``may not be necessary to increase pipeline security.''\39\ The DOT has 
testified in the past that enhancing security ``does not necessarily 
mean that we must impose regulatory requirements.''\40\ TSA officials 
have also questioned the IG assertions regarding pipeline security 
regulations, arguing that the agency is complying with the letter of 
its statutory requirements and that its pipeline operator security 
reviews are more than paper reviews.\41\
---------------------------------------------------------------------------
    \38\ Department of Homeland Security (DHS), Transportation Security 
Administration Fiscal Year 2005 Congressional Budget Justification, 
Washington, DC, February 2, 2004, p. 20; TSA, Pipeline Security 
Division, personal communication, February 17, 2009.
    \39\ American Gas Association (AGA), American Petroleum Institute 
(API), Association of Oil Pipelines (AOPL), and American Public Gas 
Association (APGA), joint letter to members of the Senate Commerce 
Committee providing views on S. 1052, August 22, 2005.
    \40\ Barrett, T.J. January 18, 2007.
    \41\ Sammon, John, Transportation Security Administration, 
Testimony before the House Transportation and Infrastructure Committee, 
Railroad, Pipelines, and Hazardous Materials Subcommittee hearing on 
Implementation of the Pipeline Inspection, Protection, Enforcement, and 
Safety Act of 2006, June 24, 2008.
---------------------------------------------------------------------------
    Unlike maintaining voluntary standards, developing pipeline 
security regulations--with provisions for pipeline operations, 
inspection, reporting, and enforcement--would involve a complex and 
potentially contentious rulemaking process involving multiple 
stakeholders. Should Congress choose to mandate the promulgation of 
such regulations, it is not clear that TSA's pipeline security division 
as currently configured would be up to the task. Indeed, the agency's 
relatively limited proposal last year to collect security-related 
information from pipeline operators, including reports about security 
incidents, was criticized by some in the pipeline industry as 
potentially exposing them to civil liability and including ``overbroad 
and unnecessary data categories,'' especially with respect to 
``suspicious'' activity, which TSA did not clearly define.\42\ By 
comparison, the DOT has a history of developing, enforcing, and 
updating extensive pipeline safety regulations. Notwithstanding this 
well-established regulatory infrastructure, given the division of 
pipeline authority between the agencies and their cooperative 
agreement, it is not clear that TSA could draw upon the regulatory 
capabilities of the DOT should new pipeline security regulations be 
required.
---------------------------------------------------------------------------
    \42\ Interstate Natural Gas Association of America, ``Re: Intent to 
Request Approval from OMB of One New Public Collection of Information: 
Pipeline Operator Security Information,'' Letter to the Transportation 
Security Administration, September 28, 2009, http://www.ingaa.org/cms/
30/9093.aspx.
---------------------------------------------------------------------------
                               conclusion
    Both Government and industry have taken numerous steps to improve 
pipeline security since 2001. While the DOT and TSA have distinct 
missions, pipeline safety and security are intertwined. As oversight of 
the Federal role in pipeline security continues, questions may be 
raised concerning the relationship between DHS and the DOT with respect 
to pipeline security. In particular, given the limited staff in TSA's 
pipeline security division, and the comparatively large pipeline safety 
staff in the DOT, Congress may consider whether the agencies' pipeline 
security annex optimally aligns staff resources across both agencies to 
fulfill the Nation's overall pipeline safety and security mission. In 
addition to these specific issues, Congress may wish to assess how the 
various elements of U.S. pipeline safety and security activity fit 
together in the Nation's overall strategy to protect transportation 
infrastructure. For example, diverting pipeline resources away from 
safety to enhance security might further reduce terror risk, but not 
overall pipeline risk, if safety programs become less effective as a 
result. Pipeline safety and security necessarily involve many groups: 
Federal agencies, oil and gas pipeline associations, large and small 
pipeline operators, and local communities. Reviewing how these groups 
work together to achieve common goals could be an oversight challenge 
for Congress.

    Mr. Carney. Thank you, Doctor.
    Mr. Forman for 5 minutes, please.

      STATEMENT OF GARY L. FORMAN, CHAIR, PIPELINE SECTOR 
                      COORDINATING COUNCIL

    Mr. Forman. Thank you, Chairman Carney, Ranking Member 
Bilirakis. We appreciate the opportunity for industry to be a 
part of this hearing.
    As previously indicated, I am the Director of Corporate 
Security for NiSource, Inc. NiSource is engaged in natural gas 
transmission, storage, and distribution as well as electric 
generation, transmission, and distribution.
    Regarding pipelines, we own and operate nearly 15,000 miles 
of interstate pipelines in 14 States and one of the Nation's 
largest natural gas storage systems.
    I am here today in my capacity as Chair of the Oil and 
Natural Gas Sector Coordinating Council, Pipeline Working 
Group, a group that is also known as the Pipeline Sector 
Coordinating Council. Again, I very much appreciate the 
opportunity to participate in this hearing and provide the 
input from the pipeline industry.
    As a security professional, I believe the lines of 
responsibility regarding pipeline security are clear. I believe 
that it is the responsibility of pipeline operators to operate 
facilities in a safe, secure manner and to work in cooperation 
with law enforcement agencies and area residents to provide the 
day-to-day security of facilities.
    In regard to the responsibilities of the Federal agencies, 
the Department of Transportation, Pipeline and Hazardous 
Materials Safety Administration, PHMSA, is responsible for 
pipeline safety. The Transportation Security Administration, 
Pipeline Security Division, is responsible for pipeline 
security.
    Historically, safety of pipelines has been driven by Title 
49 of the Code of Federal Regulations. DOT administers these 
regulations through PHMSA with a focus on numerous aspects of 
safety, including design, construction, operation of facilities 
and management of emergencies.
    On September 5, 2002, DOT issued a circular that 
recommended that operators identify critical facilities, 
develop security plans, implement these plans and review them 
annually.
    Then on December 17, 2003, a change for us occurred in the 
responsible agency for pipeline security when President Bush 
issued Homeland Security Directive 7 that identifies DHS as the 
lead agency for pipeline security.
    Pipeline operators and our trade associations in response 
to the new environment created by September 11, 2001, and also 
in response to the expectations of agencies including TSA and 
DOT, have developed security guidelines for our industry. 
Responsible operators have developed company-focused security 
programs, conducted risk assessments and implemented security 
plans. Pipeline operators have also leveraged years of 
experience as well as the requirements of 49 CFR and continue 
to maintain emergency response plans that are effective for 
security as well as safety incidents.
    Pipeline operators have also been instrumental in 
developing the Oil and Natural Gas Sector Coordinating Council 
and the Pipeline Working Group as a means of fostering 
communications between security personnel in the industry and 
with representatives of the various agencies. TSA and DOT have 
been active partners in the Energy Sector Government 
Coordinating Council and have actively participated in the 
joint meetings that occur with the industry's SCC.
    TSA has worked closely with relevant agencies and 
appropriate industry representatives to develop a responsible 
approach to pipeline security. The Transportation System Sector 
Specific Plan and Pipeline Modal Annex was developed as an 
extension of the National Infrastructure Protection Plan. This 
document provides direction to operators when establishing 
realistic risk-based security programs.
    TSA has conducted numerous corporate security reviews and 
critical facility inspections to determine if pipeline 
operators are developing appropriate security programs, 
identifying critical facilities and implementing plans as 
appropriate. TSA has shared what they consider to be smart 
practices with industry and they also have provided various 
other services to the pipeline companies, including training 
videos and annually sponsoring the International Pipeline 
Security Forum.
    Even though DOT working with industry had the original 
agency responsibility for security as well as safety of 
pipelines, it has been made clear to pipeline operators that 
TSA is now the lead agency for issues of pipeline security. 
Operators know that in the event of a significant pipeline 
safety incident, they need to contact DOT; and in the event of 
a pipeline security-related incident, they contact TSA. A 
mechanical failure or unintentional act resulting in 
significant damage to a pipeline will be reported to DOT 
through the National Response Center. An intentional act of 
damage or act of suspicious nature involving a pipeline will be 
reported to TSA through the Transportation Security Operating 
Center. All involved parties must work in cooperation with law 
enforcement, local agencies, and first responders to minimize 
damage and danger to communities and critical facilities.
    In my experience, pipeline operators, TSA, and DOT have 
shown a willingness and ability to work together and with other 
agencies and local communities in the interest of pipeline 
security.
    Thank you again. This concludes my testimony and I am happy 
to answer any questions.
    [The statement of Mr. Forman follows:]
                  Prepared Statement of Gary L. Forman
                             April 19, 2010
                              introduction
    My name is Gary L. Forman and I am currently Director, Corporate 
Security for NiSource Inc. NiSource Inc., based in Merrillville, 
Indiana, is a Fortune 500 company engaged in natural gas transmission, 
storage, and distribution, as well as electric generation, 
transmission, and distribution. NiSource operating companies deliver 
energy to approximately 3.8 million customers located within a corridor 
that runs from the Gulf Coast through the Midwest to New England.
    NiSource's Gas Transmission and Storage Operations subsidiaries own 
and operate nearly 15 thousand miles of interstate natural gas 
transmission pipelines, serving customers in 16 northeastern, mid-
Atlantic, midwestern, and southern States and the District of Columbia. 
In addition, the companies operate over 100 compressor stations with a 
total of over 1 million horsepower. One of NiSource's Transmission and 
Storage subsidiaries owns and operates one of North America's largest 
underground natural gas storage systems, operating 37 storage fields in 
four States (Ohio, Pennsylvania, West Virginia, and New York). NiSource 
also is one of the Nation's largest natural gas distribution companies, 
as measured by number of customers, delivering natural gas to over 3.3 
million customers in seven States and operating approximately 58,000 
miles of pipeline.
    I have over 35 years of experience in the pipeline industry, and 
since November 2001, I have been engaged full-time as a security 
professional. I am actively involved with the security committees of 
industry trade associations, including the Interstate Natural Gas 
Association of America and the American Gas Association. I have been an 
active member of the Oil and Natural Gas Sector Coordinating Council 
(ONG SCC) since it was created in 2004, including service as Chair of 
the Council in 2006. I currently am Chair of the ONG SCC Pipeline 
Working Group, which also serves as the Pipeline Sector Coordinating 
Council (Pipeline SCC). I also held this position in 2006 and 2007. It 
is in this capacity, as Chair of the ONG SCC Pipeline Working Group 
that I testify before the subcommittee today.
                                summary
    Prudent operators in the pipeline industry take their 
responsibility for facility and system security very seriously. The 
Department of Transportation and the Transportation Security 
Administration have provided guidance and expectations for the 
practices and procedures necessary to secure the Nation's critical 
pipeline infrastructure. Members of industry and trade associations, 
working together and through the Sector Coordinating Councils, have 
developed guidelines that are consistent with these expectations. The 
typical operator has developed security programs, conducted risk 
assessments on their facilities and implemented sound practices that 
provide for effective and practical security of their facilities.
    When considering the current responsibilities of Federal agencies, 
I believe the lines of responsibility regarding pipeline security are 
clear. The Department of Transportation Pipeline and Hazardous 
Materials Safety Administration (DOT PHMSA) is responsible for pipeline 
safety. The Transportation Security Administration Pipeline Security 
Division (TSA PSD) is responsible for pipeline security.
    A mechanical failure or unintentional act resulting in significant 
damage to a pipeline will be reported to DOT PHMSA through the National 
Response Center (NRC). An intentional act of damage, or act of a 
suspicious nature involving a pipeline, will be reported to TSA PSD 
through the Transportation Security Operating Center (TSOC). If serious 
injury, a potential loss of life, or property damages in excess of 
$50,000 occurs, the incident must be reported to the NRC.
    The emergency response practices prescribed by DOT are used in the 
event of any incident, whether intentional or accidental. All involved 
parties must work cooperatively with law enforcement, local agencies, 
and first responders to minimize damage and danger to local communities 
and critical facilities.
    In my experience, pipeline operators, TSA PSD and DOT PHMSA have 
shown the willingness and ability to work together, with other agencies 
and local communities in the interest of pipeline security.
                               background
    Safety has historically played a role of paramount importance in 
the operations of pipeline networks. As prescribed in Title 49 of the 
Code of Federal Regulations, pipeline safety, including emergency 
management has been the purview of DOT through the former Office of 
Pipeline Safety (OPS) and now PHMSA. Prior to September 11, 2001, 
pipeline security played a less prominent role. Following the events of 
September 11, 2001, pipeline security has received a much greater 
focus.
    The earliest formal guidance that pipeline operators received 
(after 9/11) regarding pipeline security was through the OPS circular 
that was published on September 5, 2002. This guidance recommended that 
operators identify critical facilities, develop security plans, 
implement these plans, and review them annually.
    On December 17, 2003, President Bush issued Homeland Security 
Presidential Directive--7 (HSPD-7). HSPD-7 identified DHS as the lead 
agency for pipeline security. The order directs DHS and other Federal 
agencies to collaborate with appropriate private sector entities in the 
protection of critical infrastructure. In September 2004, a Memorandum 
of Understanding (MOU) was signed by representatives of TSA and DOT. 
This MOU again identified DHS as having the primary responsibility for 
security of all modes of transportation.
                           industry activity
    Following the attacks on September 11, the focus on security 
changed for the Nation and for pipeline operators. As the DOT security 
circular was being developed and issued in 2002, industry trade 
associations such as the Interstate Natural Gas Association of America 
(INGAA), the American Gas Association (AGA), and American Petroleum 
Institute (API) worked diligently to develop security guidelines 
specific to their part of the industry. These guidelines typically 
described a practical, risk-based approach to security of oil and 
natural gas facilities, including pipelines. Based on these guidelines, 
prudent operators then developed or refined company-specific security 
programs to meet the needs of their company.
    While specifics may vary across industry operators, effective 
security programs typically focus on five phases: Planning, 
preparation, protection, incident response, and recovery. The planning 
phase includes development of a written program that will cover such 
areas as methods for vulnerability and risk assessment, protection of 
sensitive information, threat responses, cooperation with public safety 
personnel, and physical and cybersecurity practices. Preparation 
focuses on the completion of facility risk assessments; implementation 
of physical and cybersecurity plans, including installation of security 
devices where appropriate; and open and clear communication with local, 
State, and Federal agencies to remain abreast of possible threats to 
the industry. Preparation should also include communications that 
encourages land owners and others to report any suspicious activity 
that occurs in the vicinity of a pipeline. Protection is the actual 
day-to-day use of security components such as fencing, cameras, and 
guards. These physical protection components are used in accordance 
with facility risk and vulnerability assessments. Local law enforcement 
also plays a significant role in the protection of critical 
infrastructure, and as such, industry operators are well served to 
maintain a close, cooperative relationship with these agencies.
    Title 49 of the Code of Federal Regulations continues to govern the 
response aspect of security planning. Pipeline companies have years of 
experience responding to emergency incidents and are required by DOT to 
have effective emergency plans in place. Operators are also required to 
report significant incidents--those resulting in serious injury, 
potential loss of life, and/or property damage greater than $50,000--to 
the NRC.
    Responding to a pipeline failure that has been caused by an 
intentional act varies little from the response to a mechanical failure 
or an unintentional act. However, operators must exercise caution and 
recognize that the incident may be criminal in nature and must be 
treated accordingly. If the failure was caused by an intentional act, 
the operator is also expected to report the incident to TSA, as well as 
local law enforcement. Facility restoration is the final component of 
an industry security initiative. Specific plans will vary among 
operators based on the criticality of pipelines and factors such as 
location and time of year.
                      sector coordinating council
    In 2004, at the request of DHS, Sector Coordinating Councils were 
formed to coordinate the security initiatives of various different 
facets of the Nation's critical infrastructure. The Oil and Natural Gas 
Sector Coordinating Council (ONG SCC) was formed cooperatively by 19 
industry trade associations to coordinate communications between 
industry security professionals and representatives of the Energy 
Sector Government Coordinating Council. (See attachment 1)
    Subsequent to the formation of the ONG SCC, the Pipeline Working 
Group (Pipeline Sector Coordinating Council) was formed to further 
enhance communication and collaboration among pipeline operators and 
various Government agencies. (See attachment 2)*
---------------------------------------------------------------------------
    * Document has been retained in committee files.
---------------------------------------------------------------------------
    The ONG SCC provides a forum for discussion of relevant security 
issues and coordination and communication with agency counterparts. 
Quarterly meetings are held with SCC representatives and also jointly 
with members of the Energy Sector Government Coordinating Council 
(GCC). The Energy GCC is chaired by a representative of the Department 
of Energy and the GCC includes members of numerous agencies, including 
TSA and DOT. The ONG SCC serves as a point of coordination for broad 
communication with the security representatives of the oil and natural 
gas industry and our partners in State and Federal Government. Members 
of the ONG SCC provided significant input to DOE during the development 
of the Energy Sector Specific (Security) Plan that was included as part 
of the National Infrastructure Protection Plan process.
    The ONG SCC has several different working groups that specialize in 
key security areas, such as Information Sharing--Homeland Security 
Information Network, Cyber Security, and Pipeline Security. The 
Pipeline Working Group includes representatives of industry operators 
and four of its major trade associations: API, AGA, INGAA, and the 
Association of Oil Pipelines (AOPL). The group meets as part of the ONG 
SCC. In its role as the Pipeline Sector Coordinating Council it also 
meets periodically with its counterparts in the Pipeline Government 
Coordinating Council. The Pipeline GCC is chaired by a representative 
of TSA PSD and includes representatives of DOT and other Federal 
agencies. Members of the Pipeline Working Group have provided 
significant input to TSA PSD to assist in its development of pipeline 
security guidelines. The Pipeline SCC and GCC have been proven to be a 
sound avenue of communications between industry and the agencies.
            activity of tsa pipeline security division (psd)
    TSA's Pipeline Security Division regularly conducts Corporate 
Security Reviews (CSR) of major pipeline operators. The CSRs have 
focused on the overall security plan implementation of these major 
operators.
    TSA PSD has also conducted Critical Facility Inspections (CFI) of 
identified pipeline locations. The CFIs have focused on the 
implementation of security plans and actual day-to-day security 
practices at these critical facilities. Results of these reviews have 
been used to develop security ``smart practices'' to be shared widely 
throughout the industry.
    TSA has also provided industry with other valuable services such as 
a Pipeline Security Training video available for use by operators and 
by sponsoring an annual International Pipeline Security Conference that 
brings together pipeline security professionals and representatives of 
appropriate agencies. These programs have not only been a means of 
evaluating the actual security practices of the pipeline operators, but 
they have also been a means of promoting industry familiarity with the 
responsibilities and personnel of the TSA PSD.
    TSA PSD has also promoted the use of the Transportation Security 
Operations Center (TSOC) as a point of contact for pipeline operators 
to report any significant security incidents or suspicious activities. 
The TSOC is staffed 24 hours per day and disseminates the information 
it receives to the appropriate agency or division for response.
    In May 2007, TSA issued the Transportation Systems Sector Specific 
Plan and Pipeline Modal Annex that is part of the National 
Infrastructure Protection Plan. The Pipeline Modal Annex includes such 
items as a description of risk-based security programs, security 
program management, and site and program assessment.
    Since 2008, TSA PSD has also been developing more specific Pipeline 
Security Guidelines. During the development of the Pipeline Modal Annex 
and the pipeline Security Guidelines, TSA PSD has taken a practical and 
reasoned approach to pipeline security. TSA PSD has worked with 
agencies including DOT and DOE and with industry, through the ONG SCC 
and the Pipeline SCC, to identify effective and practical security 
practices for pipeline operators.
                               conclusion
    Pipeline operators have worked through their industry trade 
associations to develop security guidelines. Prudent operators have 
developed effective, risk-based security programs and implemented 
practices that follow the guidance of TSA PSD and DOT.
    Even though DOT had the original responsibility to work with 
pipeline operators regarding issues of security, it has been made clear 
to pipeline operators through HSPD-7 and coordination and 
communications with pipeline operators through the ONC SCC and Pipeline 
SCC and member trade associations that TSA PSD is the lead agency for 
issues of pipeline security. TSA PSD has reinforced this message by 
their contact with pipeline operators during the CSR and CFI process 
and by providing relevant security support to industry. Operators know 
that in the event of a significant pipeline safety incident they need 
to contact DOT PHMSA. In the event of a pipeline security-related 
incident they need to contact TSA PSD. A mechanical failure or 
unintentional act resulting in significant damage to a pipeline will be 
reported to DOT PHMSA through the National Response Center (NRC). An 
intentional act of damage or act of a suspicious nature involving a 
pipeline will be reported to TSA PSD through the Transportation 
Security Operating Center (TSOC). If there are serious injuries, 
potential loss of life or damages in excess of $50,000 any incident 
must be reported to the NRC. All involved parties must work 
cooperatively with law enforcement, local agencies, and first 
responders in the event of any incident in order to minimize damage and 
danger to persons or property.
    In my experience, pipeline operators, TSA PSD and DOT PHMSA have 
shown the willingness and ability to work together, with other agencies 
and local communities in the interest of pipeline security.
        Attachment.--Example: Pipeline Security-Related Incident
    As an example of how a security-related incident should be handled, 
I am sharing the following.
    On April 4, 2010, a representative of Columbia Gas Transmission 
Corp (a NiSource company) operations monitoring center received a 
report of a significant leak in a pipeline that serves a small mid-
western town. Following established emergency procedures, local 
operations personnel responded to the call. Upon arrival they found 
that a 6-inch diameter natural gas pipeline that operates at 
approximately 170 psig appeared to have been punctured. The line is 
suspended over an irrigation canal and is the sole natural gas feed to 
this small town. Continuing to follow established emergency procedures, 
the operations personnel allowed pressure to be reduced on the line, 
and then they made a temporary repair with a plug and clamp. While 
making the repair, the supervisor observed that the hole appeared to 
have been made by a bullet. As soon as repairs were completed the 
supervisor notified Corporate Security and local law enforcement. As 
the Corporate Security representative, I notified the TSOC. By 
following established emergency procedures, service was maintained to 
customers and operations personnel were able to make appropriate short-
term repairs while not endangering individuals or property. More 
permanent repairs will be made at an appropriate future time. Also due 
to established procedures and the training of the operations personnel, 
they made appropriate contact with local law enforcement and corporate 
security and the TSOC was notified. Currently the incident is deemed an 
act of random vandalism; however, the area and facilities will be 
monitored for any future occurrences.

    Mr. Carney. Thank you, Mr. Forman.
    That concludes the opening statements. I want to thank all 
of you for your testimony and we will now go to the question 
section of the hearing. Mr. Bilirakis and I will trade off for 
5 minutes at a time here and I will recognize myself for 5 
minutes.
    Mr. Fox, it was mentioned earlier that there is the 
requirement to promulgate regulations. Do you see it as 
necessary to do that?
    Mr. Fox. The 9/11 Act does have a stipulation in it that we 
have to make a determination and, if felt necessary, to 
promulgate regulations.
    At this point, we are continuing to work with a public/
private partnership that has been established and working well 
with industry. It is a subject that we continue to look at. If 
we would find that our recommendations are not being heeded--
when we make recommendations, they are actually expectations 
that we are putting out, and if industry is not following 
those, we would immediately turn to going into regulations. But 
at this point, we are still working on this partnership that we 
have with the private industry.
    Mr. Carney. Do you agree, Mr. Forman?
    Mr. Forman. Yes, I do, that is very appropriate.
    Mr. Carney. Mr. Parfomak, do you think that is right?
    Mr. Parfomak. Not all sectors of critical infrastructure 
are subject to security regulations. Some are--nuclear power 
plants are, chemical plants are, port facilities are. Some are 
not--trucking is not, mass transit is not. You know, we know 
there are critical threats to mass transit, happens in Europe, 
bombings, that sort of thing. So just because there are 
credible threats to it does not necessarily mean that there 
must be security regulations applied to those things. So it is 
an open question.
    I think the issue of whether there should be security 
regulations or not does depend on how comfortable Congress 
feels about whether the pipeline system is secure. I think the 
challenge here is that given the limitations in how closely TSA 
can look at the systems and the time elapsed between when they 
look at them, it is hard to know for sure whether they really 
are or not. I mean you can go and look at them, you can look at 
12 systems a year and you can say well, these 12 systems we 
just visited and, you know, we met with their staff, we looked 
at a couple of spots on the system and it looks like they are 
following it and we believe they are sincere. But, you know, 
there is 100 others that we did not look at that year or have 
not looked at in 3 or 4 years. You know, privately owned 
companies, as we know and we have seen many times in the safety 
area, even in their best efforts, sometimes they lapse, 
sometimes priorities shift, sometimes there are budget 
constraints. So we really just do not know for sure because we 
do not have the data, because it is not required.
    Mr. Carney. Our concern I think is probably shared by 
everybody who is in Congress is that there is no problem until 
there is a problem, until something happens. Then they will say 
well, why was that not regulated? So are we being as 
proactive--this is for everybody, you can all jump in on this 
one. Are we being as proactive as we need to be or are there 
things that we need to do better?
    Mr. Forman. Chairman Carney, if I may.
    Mr. Carney. Yes.
    Mr. Forman. I agree with Mr. Fox, I think the approach that 
has been taken, you know, the partnership approach, 
particularly on security, is a very good way to continue to 
wait and see. Jack and his group--Mr. Fox and his group--works 
very closely with the Pipeline Safety Coordinating Council. We 
as industry recognize and understand and preach to our members 
and other companies that it is our responsibility to be 
proactive in security. We do have good guidance out there and 
we need to be responsible companies. As Mr. Fox said, they do 
CSRs, they do facility reviews, if he determines that there are 
companies that are not doing that, then maybe somebody needs to 
back up and take another look at it, but we need to be flexible 
on the way we approach the security.
    One of the things we found when we had regulations, through 
some of the other regulations, they tend to be--you know, some 
places regulations are really good, but regulations tend to be 
very prescriptive. You do the same thing every place. In 
security, you waste a lot of resources doing that. When you are 
wasting resources on something that is unnecessary one place, 
you are really missing and you are wasting and you do not have 
the resources to do the things that you need to do at maybe 
another potentially critical location. That is one of the 
issues I have if we go through a regulatory approach.
    Mr. Carney. Mr. Wiese.
    Mr. Wiese. I have to say that philosophically I agree with 
Mr. Forman's take. The daily threat to pipelines in this 
country comes from things like excavation, improperly conducted 
excavation, or lack of proper maintenance or lack of proper 
operation of the system. That said, I do not think anyone is 
interested in downplaying the risk from potential terrorist 
activity or vandalism.
    I would say that the decision on regulation, really Jack 
Fox and his group are intimately more involved and informed 
than I am on that matter. But I will tell you that the 
partnership between TSA and PHMSA is working quite well.
    If Jack came to us, for example--to my knowledge, no 
operator has ever told TSA that they would not implement their 
recommendations. But even if push came to shove, I think we 
would try to use our authority to define that through a 
corrective action order or safety order to that operator.
    Mr. Carney. Okay, thank you. My time is up, this 5 minutes. 
Mr. Bilirakis.
    Mr. Bilirakis. Thank you. Can everyone hear us in the 
audience? Okay. Can you hear also--okay, very good--the 
presenters? Okay, very good.
    My first question is to Mr. Fox. The first pipeline 
security guidelines were issued by DOT in 2002. Section 1557 of 
the 9/11 Act required TSA to update security recommendations 
and transmit them to owner/operators by February 2009. Where is 
TSA in meeting this requirement? That is my first question.
    Mr. Fox. That is a very good question. The updated security 
guidelines have been finished. We worked with our Government 
partners as well as with private industry on those. They have 
been finished and currently they are at TSA under review. They 
have not been issued to industry at present.
    Mr. Bilirakis. Give me some specific obstacles that have 
prevented a more timely release of updated guidelines to 
pipeline owners and operators. What were the obstacles, why is 
it taking so long?
    Mr. Fox. Our legal staff obviously has been busy with lots 
of regulations that they are working on for some of the other 
modes. They have to get clearance through legal before we can 
release them.
    There is also something referred to as the Paperwork 
Reduction Act that if we ask more than nine companies for a 
certain piece of information, we must file notice in the 
Federal Register that we are going to do this. In the new 
guidelines, there are two different requests for information. 
One is we asked for the name and 24-hour contact number of 
security directors of the pipeline companies so that we can 
reach them any time day or night. The second is if they see 
something suspicious, asking them to call our Security 
Operations Center. We have gone through the 60-day notice and 
have only received I believe five comments from industry. We 
have adjudicated those and we are in the process of releasing a 
30-day notice which is required prior to release of the 
guidelines.
    So they are not far away, but they are not released at this 
time.
    Mr. Bilirakis. Thank you.
    For Mr. Forman, what is the extent of the Pipeline Sector 
Coordinating Council and other industry input that was included 
in the draft of the new pipeline security guidelines?
    Mr. Forman. We were very much included in the process. We 
were asked to participate and provide input to Mr. Fox and his 
staff. They had representatives, a good cross-section of 
physical and cyber-security representatives, to be able to 
provide input into the document and the document that I have 
seen at this point, since it has not been finally released to 
us, is a very good, common-sense, realistic approach to 
security for pipeline companies and the industry.
    Mr. Bilirakis. Thank you, sir.
    Again for Mr. Fox, in his written testimony Director 
Gispert noted that his office has not had contact with your 
office since the ammonia workshop in August 2008--he may want 
to elaborate on this when he testifies--and that he would 
welcome the opportunity to share information with TSA.
    What mechanisms do you have in place to share information 
with State and local emergency response officials when either 
you or they feel the need arises? I think this is very 
important.
    Mr. Fox. If we felt the need arise for a certain incident, 
we would reach out directly to them, making a phone call or 
making a visit, depending on what the situation was. But we 
would reach out if we felt the need.
    If in fact they felt a need to reach us for something, we 
have a website, a link to a website where people can drop an e-
mail to us, we have contact phone numbers where they can reach 
out to us. We have many mechanisms, either by telephone or by 
e-mail where they could reach out to us.
    Frequently we give speeches about pipeline security at 
various locations. If we are asked to come, we typically will 
do that. If a State asks us to come and speak--actually Florida 
has an association of pipelines that has a meeting this July 
that we will be speaking at to those operators that are in 
attendance.
    Any time information is asked of us, we do our best to get 
back as promptly as we can and support whoever that is, if it 
is pertaining to pipeline security.
    Mr. Bilirakis. Thank you. I will yield back, Mr. Chairman.
    Mr. Carney. Thank you, Mr. Bilirakis.
    Mr. Fox, let us deviate slightly here and talk about the 
2011 budget request. I see that there is not a separate line 
item for TSA's pipeline security activities. The budget does 
include $137-million-plus for surface transportation security. 
Do you fall under that?
    Mr. Fox. Yes, sir.
    Mr. Carney. Can you elaborate, kind of a breakdown on how 
much resource you have?
    Mr. Fox. This current year's budget is about $4 million 
that is directly related to our pipeline group; slightly less 
than $2 million of that is for salaries and benefits. The 
remaining is for projects that we have on-going, outstanding 
contracts. As I mentioned, we have a video in production right 
now on pipeline security to assist local law enforcement in 
understanding what pipelines do and the security. We have a 
second video about improvised explosive devices and training 
for first responders, that is also in production this year.
    Mr. Carney. Right. Could you tell me your office's budget, 
how many FTEs you have, how many contractors you have working 
for you?
    Mr. Fox. Currently we have budgeted for 13 FTEs. 
Contractors, we have none on staff. We do have a contract force 
that is helping us with one of our programs referred to as our 
critical facility inspection. Critical facility inspections 
were required of us under the 9/11 Act. There is approximately 
in the United States 380 critical pipeline facilities, by a 
definition that we have. With TSA and contract forces that are 
helping us with this review, we have conducted reviews of 
slightly more than 200 of those locations at this point. We 
hope to be finished by the end of the year 2011 with that 
project.
    Mr. Carney. Are 13 people enough?
    Mr. Fox. Well, we have one of our staff that is out with 
two contract folks on these reviews.
    Mr. Carney. I am talking about the whole office here, Mr. 
Fox.
    Mr. Fox. Can I get back to you on that?
    Mr. Carney. I would prefer you answer now. You are 
perfectly welcome to say that you need more resources, would 
not break my heart a bit.
    Mr. Fox. Presently the agency--we have just added--we had 
12, we are adding a 13th person right now. We continue to grow 
the program, it is a slow process, we are in competition with 
some other modes, as you know. We try and use whatever 
resources the agency gives us the best we can to get as much as 
we can for the money that we have available.
    Mr. Carney. I appreciate the efficiency with which you are 
working. I think I got the other answer out of that.
    [Laughter.]
    Mr. Carney. You know, what almost every one of you have 
talked about in terms of pipeline issues is the cyber-threat. 
You know, everything is computer controlled now or most things 
are computer controlled now and we know that we are under 
constant attack from within and without this country on the 
cyber-security network. You know, what are we doing there? Mr. 
Fox first and then Mr. Forman.
    Mr. Fox. Using the guidelines that will be out shortly, we 
have a section in there on cyber-security. We have used the 
services of Johns Hopkins University's applied physics lab to 
assist us with this and also private industry brought in some 
of their SCADA security experts to work with us on this 
project. It is something that I know industry values very much, 
it is a concern. If someone did hack into a SCADA system, it 
could be shut down. They are designed so it should not make 
them explode or do anything else, but it could cause 
disruption, it could cause them to shut down, but it should not 
cause a failure to the system.
    Mr. Carney. Mr. Forman, please.
    Mr. Forman. First of all, I wanted to agree with Mr. Fox on 
his last comment that a SCADA system failure, somebody hacking 
in, probably the worst they could do is we could be shut down, 
which could be certainly significant, depending on the 
marketplace, the time of year, and all that kind of stuff. But 
it is not as bad as it is on the electric side. Electric is 
instantaneous, if you lose a SCADA system on electric, you have 
got a serious problem. Typically the oil and natural gas side 
and the pipeline side still has--can maintain some degree of 
control. But we are very focused on that. Again, through our 
Sector Coordinating Council, we have a cyber group, some of the 
experts within the industry, that provided input to Mr. Fox's 
guidelines but also developing the day-to-day kind of guidance 
that we need in the industry also.
    Mr. Carney. How many cyber attacks do you think the 
pipeline industry has faced?
    Mr. Forman. My expertise is the physical security side, so 
I cannot give you a really good answer on that but I would say 
anybody that has cyber facilities, there are certainly hundreds 
and hundreds of day-to-day kind of issues, you know, somebody 
always trying to slam into firewalls and those kinds of things. 
I do not know the right technical terms for it, but there are a 
lot of issues with it and all of us major pipeline operators 
have our own cybersecurity professionals that work for us too.
    Mr. Carney. We will revisit this on my next turn. Mr. 
Bilirakis for 5 minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman.
    As a follow-up to Chairman Carney's question, to what 
extent does your office work with National Cyber Security 
Division to ensure that cybersecurity is included in any 
guidance provided to pipeline operators?
    Mr. Forman. For me?
    Mr. Bilirakis. Yes, for you, sir.
    Mr. Forman. Again, we have--within our companies, we all 
have cybersecurity professionals. We have to have people that 
are focused on the cyber side of it and work with not only Mr. 
Fox's agency but they work with the FBI through the InfraGard, 
they work with all the cyber experts so that we can have good 
coverage and maintain protection for particularly our SCADA and 
control systems, let alone our day-to-day business systems.
    Mr. Bilirakis. Mr. Fox.
    Mr. Fox. Thank you. We do work with Cyber Security Division 
of DHS. One of the things that our office does, we hold a 
monthly teleconference for industry, held the third Tuesday of 
each month. We have brought in a speaker from Cyber Security 
Division to let industry know what services would be made 
available or could be made available to them. Actually later 
this week, tomorrow and Wednesday in New Orleans, the American 
Petroleum Institute is having their annual pipeline conference. 
I will be speaking on pipeline security, but following the 
pipeline conference is a cybernetics conference and I have made 
arrangements for someone from the cyber group of DHS to be one 
of the cybernetics conference speakers at that event.
    So we do work with them as we can and get information out 
to industry when we can as to a service that can be made 
available to them.
    Mr. Bilirakis. Thank you.
    Question for Mr. Wiese. To what degree are DOT pipeline 
inspectors utilized to check for security compliance as well as 
safety?
    Mr. Wiese. That is a good question. We have worked with 
Jack and his staff for quite some time to work on the corporate 
security reviews when invited. You know, when they are going to 
the top 100, we have pledged support of their group, so we will 
go along and try to lend our expertise as well. So I think on a 
regular basis, annually, we work on the corporate security 
reviews.
    You know, on the inspector basis, we talk on almost a daily 
basis. I think as we said, we are all tied into the National 
response framework and the communications that come under that. 
So I think we are also meeting quarterly to exchange 
information. But the inspectors and I think that extends as 
well to the State inspectors, there are quite a few inspectors 
in each of the States, with the exception of Hawaii and Alaska, 
and Jack and his folks work with the State inspectors as well.
    Mr. Bilirakis. Thank you.
    A question for Mr. Forman. You state in your testimony that 
the lines of responsibility between TSA and DOT are clear. Do 
you believe that experience with actual responses to incidents 
reflects this as well and do you believe that the smaller 
owners and operators and local emergency response officials are 
clear on who is responsible at the Federal level? I think this 
is very important. How about coordination between TSA and the 
U.S. Coast Guard which has responsibility for responding to 
incidents on the waterways?
    Mr. Forman. I think for those of us in the pipeline 
industry that do work full time in security, I think it is 
pretty clear that DOT is safety and TSA is security, because we 
have worked on it extensively.
    Mr. Bilirakis. It is clear in the private sector?
    Mr. Forman. In the private sector, certainly through the 
sector council. In our sector council, the Oil and Natural Gas 
Sector Council, we represent 23 trade associations, roughly--
let me put it that way, roughly 20 trade associations now. So 
that filters down to the members and hopefully to all those 
smaller members also. I certainly cannot guarantee that it has 
reached everybody, but I think it probably has in some form or 
fashion. So I think it is pretty well known on the industry 
side.
    Personal experience with response, whether it was a safety 
incident or a security incident, whether I have had to call 
National Response Center or the TSOC, I received good response 
and it has been very clear. You know, DOT responds when they 
are supposed to and TSA has responded. I have gotten the right 
questions from the right people. So again, that has been my 
experience with it.
    You asked about the Coast Guard. The lines were somewhat 
blurred when the Coast Guard came out with some of their MTSA, 
Maritime Transportation Security Act, regulations a number of 
years ago. I think there was a number of issues when that first 
came out. But I think now, as we have worked through it, I do 
not know of any real major issues right now between the Coast 
Guard and TSA on facilities. There are certainly some overlaps. 
You know, in some facilities, there will be multiple agencies 
who will have some form of responsibility. But I think that, at 
least from my experience, it has been working well.
    Mr. Bilirakis. Can you explain, and maybe the rest of the 
panel can chime in, why TSA should have responsibility over 
security and DOT over safety? Why can it not just be one 
agency?
    Mr. Forman. One agency?
    Mr. Bilirakis. Yeah.
    Mr. Forman. I do not know that I can give you a real good 
answer on that, but from my perspective, the answer would be 
TSA is the transportation security agency for all forms of 
transportation. Pipelines are a form of transportation. And to 
me, that is why they have the security responsibility for it. 
We have always worked closely with DOT on the safety side, but 
I can see no real reason that TSA has not--would not have the 
security responsibility for those same pipelines because they 
are a form of transportation.
    Mr. Bilirakis. Okay, anyone else want to add to that?
    Mr. Fox. I think ATSA, the Aviation and Transportation 
Security Act, made it clear that TSA would be the Federal 
agency responsible for security of six modes of transportation, 
including pipelines. Actually now, since then, one mode, the 
maritime mode, the Coast Guard is the actual lead agency, but 
the other five modes, TSA is the lead agency for security of 
those modes. It has been backed up by Presidential Directive as 
well.
    But it is a different expertise. Our folks concentrate on 
the security and have the expertise. It is not--there is an 
intertwining of safety and security, but companies separate, 
larger companies have people that are responsible for safety 
and people responsible for security. There is a separation and 
different duties within the company, in the industry, as well 
as in the Federal Government.
    Mr. Bilirakis. Anyone else?
    Mr. Parfomak. Where to put pipelines has always been a 
little bit tricky because they are a mode of transportation but 
it's not like a ferry or an aircraft or a subway system or 
trucks----
    Mr. Bilirakis. Right.
    Mr. Parfomak [continuing]. On highways where you have got 
lots of people that might be killed. I mean it could happen in 
a pipeline terrorist attack. More likely, you would have a 
disruption like when the BP Alaska pipeline shut down Prudhoe 
Bay oilfields for some time and that was 10 percent of our oil 
supplies from Alaska were interrupted because of corrosion in 
those systems. So there is economic implications.
    It is a mode of transportation, but it is really considered 
part of the energy sector and so Congress has always struggled 
where to put this. You know, TSA, they know the security stuff, 
they know about incidents, they are listening in on the 
chatter, they are tied in directly with who is looking at al-
Qaeda and ecoterrorists and other folks. You know, let us not 
forget that there have been pipeline attacks in British 
Columbia, several in the last couple of years, that were most 
likely not Islamic terrorists, but nonetheless somebody was 
blowing them up. So there is a whole range of things that TSA 
potentially has the information, the risk management, how to 
coordinate response impacts, cascading impacts. If you shut 
down a pipeline what happens to downstream facilities, those 
are all the sorts of things that TSA is intended to be good at.
    On the other hand, you could argue that the history and the 
experience with the pipeline systems and the level of staff 
resides in the DOT. So I mean, you know, Congress has decided 
with the past President's help where this ought to go. One 
could argue either way. This is the way it is right now.
    Mr. Bilirakis. Thank you very much, appreciate it.
    Why don't I yield back? I have a couple in the next round. 
Thank you, Mr. Chairman.
    Mr. Carney. Thank you.
    Mr. Wiese, you were going to finish up.
    Mr. Wiese. If you would allow me. You know, I have wondered 
about this question myself. To be honest with you, there is no 
clean line. I think we have to work well across the lines. One 
of the things I will say about pipelines, you have to think of 
them as the overwhelming majority of pipelines are shippers, 
just shippers. They do not own the product. They move the 
product from someone who is delivering to someone who is 
consuming. So in many ways, it does fit well within the 
Department of Transportation, which regulates shippers. But 
that is it.
    I mean clearly we have to work well with others, whether it 
is the TSA or the Federal Energy Regulatory Commission, the 
Department of Energy. That speaks to the need for interagency 
coordination. So just wanted to draw out the fact that we do 
regulate shippers in a rate-constrained environment as well.
    Mr. Carney. I appreciate that. One of the frustrations--I 
have been working in some capacity in the Federal Government 
for many, many years and one of the profound frustrations that 
I have felt are these sort of distinct lines that you do not 
cross. So you end up creating seams in Government activity. 
While we tend to get a little bit uncomfortable with gray area 
or fuzzy lines or whatever, I for one happen to think that it 
might work. If you guys are making this work and if the 
industry is content and if the outside viewers seem to think 
that it is okay so far, you know, I think this is something 
that could be examples for other things going forward.
    I do not know how many interagency meetings I have sat in 
on on the defense-related side of things. They are exasperating 
because the concern is protecting of bureaucratic turf more 
than actual doing the job. My concern actually frankly, Mr. 
Fox, is that you guys do not have enough resources to do what 
you are supposed to do. But that has been a concern of mine 
across a number of issues.
    Dr. Parfomak, I really want to get your views on a couple 
of things. First of all, is the industry and DOT, TSA doing the 
cyber-security thing correctly from your perspective? Are they 
testing the system? Are they doing that sort of thing? 
Secondly, do you think that more resources are needed at TSA?
    Mr. Parfomak. I am not really qualified to get into details 
of the cybersecurity specifics. I can say that they have been 
active in going to reputable places to get help and look at 
these issues, and as the agencies have said, they have been 
addressing them proactively.
    I think there is an awareness across the utility industry, 
both in pipelines, electric power, and natural gas and 
petroleum, that cybersecurity is a really big deal. There have 
been very prominent cybersecurity attacks on critical energy 
infrastructure in the United States and everybody knows that, 
everybody knows that they are vulnerable. In the electric power 
sector, which is probably the most vulnerable to attacks by 
cybersecurity, there are regulations for cybersecurity. So I 
can say that I have not heard or read anything that suggests 
that not enough attention is being given to this issue in the 
pipeline sector.
    I have forgotten your second question.
    Oh, do I think----
    Mr. Carney. Are they resourced adequately?
    Mr. Parfomak. Well, it depends on what you want them to do.
    Mr. Carney. Well, okay, there is about 13 of them 
apparently and 2.5 million miles of pipeline.
    Mr. Parfomak. If Congress is satisfied that folks from TSA 
can physically go and visit a dozen major systems a year, and 
let us say there are 100 that are really important, that I 
think carry 85 percent of the volume throughput in the country.
    Mr. Carney. Uh-huh.
    Mr. Parfomak. That on those visits they can--a lot of this 
is documented in the GAO report on the subject, including Mr. 
Fox's statement that he would like more staff to do CSRs more 
frequently.
    Mr. Carney. See, you can tell me that directly, too, you 
know that, it is fine.
    Mr. Parfomak. Which would be my testimony, I believe.
    [Laughter.]
    Mr. Parfomak. So, you know, it depends. If you think that 
they are doing a good job and they just need an occasional 
checkup and that, you know, you are comfortable with several 
years between actually going and seeing a system, and in 
between time, you are really taking their word for it; then, 
you know, they are doing a fine job and that is what they are 
doing.
    You know, history in the pipeline safety world suggests 
that that might not be enough. I mean even--as you may know, 
there have been a lot of very prominent pipeline safety 
incidents over the last 15 years and DOT has done a really, 
really good job, sometimes under the lash of Congress, of 
updating their pipeline safety regulations and putting in 
integrity management systems. But these are very complex, very 
sophisticated risk-based regulations. Even then, we have things 
like the Prudhoe Bay pipeline shutting down. There are still, 
notwithstanding hundreds and hundreds of inspectors and very 
stringent, very specific, very well-thought-out regulations, 
hundreds and hundreds of incidents of safety violations from 
these inspections.
    So, notwithstanding having what some would hold up as a 
model safety regulatory regime and good relationships between 
the Government and operators, there are still many, many 
violations reported. So you have to ask yourself: Do you 
believe that there are no security regulations in the pipeline 
system?
    I do not know the answer to that, but, you know, that is a 
question for Congress.
    Mr. Carney. Sure.
    Mr. Wiese, what is different in terms of the security 
aspect that you do as opposed to TSA or is--I assume you do 
some security. You say safety, but----
    Mr. Wiese. There are light security provisions in some of 
our regulations but they are really meant not to deter someone 
who is determined to cause damage. They are meant for site 
security, trying to keep people out of areas where there is 
rotating equipment or just general light protection around the 
facility. It is clearly not meant, you know, for someone who is 
determined to cause havoc. That is really where our friends at 
TSA come in.
    So there is an overlap in there, but clearly when it gets 
down to that level of threat, we are talking about TSA and our 
job there I think we understand is to support them.
    Mr. Carney. Sure.
    Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman. I think I am in 
agreement with you, we need more positions, more resources for 
TSA, so we need to do something about that.
    For Mr. Fox, how do you measure the progress of all 
pipeline systems in meeting the security guidelines? Do you 
maintain statistics on how facilities have implemented the 
guidelines? Do you have inspectors to ensure that they are 
actually being complied with or do you rely on self-reporting?
    Mr. Fox. As I stated before, we have two different 
programs. One is what we refer to as the corporate security 
reviews and we have reviewed the top 100 systems and now we are 
back and have probably done 40 percent on a second review. It 
indicates to us by these reviews that the security of the 
Nation's pipelines is improving. But that is a paper review in 
an office.
    We also, by our corporate facility inspections, as required 
of us under the 9/11 Act, are actually having boots on the 
ground, people out at each of the critical facilities. As I 
stated previously, we have done slightly over 200 out of the 
380 in the country. For the most part, security is very good.
    Where we see weaknesses in security, we review that with 
the company right on site--what we feel they need to do. How 
they need to do it is up to them, we do not specify exactly how 
to do it but we tell them what the desired result or the 
necessary result is. A report is written up after the fact and 
then given to the company with those recommendations in it.
    We are going to be starting with--we have talked recently 
of starting a program of now following up with the companies to 
see the status of those recommendations. On this date, we told 
you you ought to do this: Where does it stand? So that is 
something that we are just starting at this time.
    But we have two different programs. One is more of a 
corporate basis and the other is boots on the ground of people 
out in the field with fantastic security expertise meeting with 
the companies and going out.
    Mr. Bilirakis. I would be interested in getting a progress 
report every so often if that is possible.
    Mr. Fox. Yes, sir.
    Mr. Bilirakis. Okay.
    The next question is for Mr. Forman. How often does the 
Pipeline Working Group SCC receive threat information, 
classified or unclassified, regarding pipeline security?
    Mr. Forman. We have a monthly conference call with 
unclassified type of threat information that we receive through 
DHS. We also have a monthly call with TSA that focuses on cyber 
and physical. Then they also make available to us twice a year 
typically, a classified briefing for those of us that actually 
have a security clearance.
    Mr. Bilirakis. Good.
    Mr. Forman. If I might expand on that just a little bit. 
That is probably one of the best services that can be provided 
to us as industry. You know, we can do a lot on our own 
security, we can do a lot on determining the consequences of 
individual facilities. Where we have issues is determining what 
the real threats really are that are out there.
    Mr. Bilirakis. Right.
    Mr. Forman. The Government really does play a major role in 
providing that to us. They are getting better.
    Mr. Bilirakis. Thank you. Anyone else want to comment on 
that?
    Mr. Fox. Yes, I would like to comment. It is rare, but at 
times we do get specific information about a company, 
classified information about a company, that they are under 
surveillance or what-have-you. We then work directly with that 
company, share with them what we can. Typically their security 
managers have a clearance, we can share that classified 
information with them and also work with them on making sure 
they are doing all they can to protect their facilities. We 
worked with a company involved on the JFK Airport. We have had 
three or four other instances in the last 5 years where we have 
actually brought companies in, reviewed classified data with 
them and then put a team together out in the field to help them 
better harden their facilities that were under observation.
    Mr. Bilirakis. Thank you. Anyone else that would like to 
comment?
    [No response.]
    Mr. Bilirakis. Okay. To what--this is for Mr. Forman. To 
what degree does the Department of Energy play a role in 
pipeline security?
    Mr. Forman. DOE plays a significant role in the overall 
security for the energy organizations or energy industry. The 
Energy Sector Specific Security Plan that was written, DOE is 
the sector-specific agency for that. For our Oil and Natural 
Gas Sector Coordinating Council, they are the counterpart lead 
or chair for the Government Sector Coordinating Council, so 
they certainly do play a role. Again, if you separate the 
energy away from the pipeline side, they are a major player. 
But the reality is, as we have talked about all the way through 
this, it is a partnership. DOE works with TSA and certainly as 
we have looked at DOE's sector-specific plan, there are no 
conflicts between that plan and the plan that was developed by 
TSA for pipelines. If we had conflicts, we would have had a 
real problem, but we do not have those conflicts. In fact, they 
are very compatible plans, so they work together on it.
    Mr. Bilirakis. Thank you.
    A question for Mr. Wiese. How many emergency responders 
have received training from your emergency responder training 
materials and is there a cost to local emergency response 
providers wishing to receive these materials?
    Mr. Wiese. Thank you for that question. Actually there is 
no cost.
    Mr. Bilirakis. There is no cost?
    Mr. Wiese. There is none. That was a provision of our 
cooperative agreement with the National Association of State 
Fire Marshals. They could assess a recovery fee to others, but 
not to emergency responders. That was the benefit of our grant 
to them fundamentally.
    You know, I cannot answer precisely the number who have 
been trained. I would be happy to submit that for the record, 
but I know that there have been hundreds of trainers trained. 
Our initial round was to go out and teach the folks who go into 
the emergency response community and conduct training. So we 
have gone out State by State----
    Mr. Bilirakis. Are these trainers locals?
    Mr. Wiese. Yes.
    Mr. Bilirakis. Oh, okay.
    Mr. Wiese. They would be in a county setting or in some 
cases in the fire academies or what-not. But to do the training 
of the trainers. So I cannot actually answer but I could ask 
and try to inquire and get you an answer back about the 
students receiving it.
    Mr. Bilirakis. Yes, can you get back to us on that?
    Mr. Wiese. I certainly will.
    Mr. Bilirakis. Very important. Thank you. I yield back, Mr. 
Chairman.
    Mr. Carney. Thank you, Mr. Bilirakis.
    We have heard a couple of times now about the corrosion in 
Alaska in the pipeline. Is corrosion an issue across the 
network?
    Mr. Wiese. I would be glad to take a first swing at that 
one.
    Mr. Carney. Sure.
    Mr. Wiese. Absolutely. Any time you have ferrous materials, 
you know, in contact with soil and other things, you are going 
to have corrosion, and contact with salt water or salt mist or 
spray. So it is a constant threat, but it is one that is pretty 
well understood in the pipeline community. The question is the 
level of maintenance and the level of integrity assessment that 
the companies put forward.
    One of things I should add with your permission is to say 
that the pipeline operator--I had this conversation earlier--
really bears the ultimate responsibility. They are the ones 
deriving the economic benefit from the shipping. It is their 
responsibility. Our regulations set the parameters for that, 
but clearly most operators go beyond the regulations in certain 
areas. Some go under the regulations. Our job is to provide a 
deterrence to that, you know. But again, I want to underline, 
whether it is security or safety, I think the matter is the 
same, the pipeline operator bears the responsibility for doing 
that in line with the guidance that is provided.
    Mr. Carney. Mr. Forman, how many miles of pipeline are 
replaced every year, do you know?
    Mr. Forman. I have no idea how many are replaced every 
year.
    Mr. Carney. You know, just on routine maintenance. Not 
sure?
    Mr. Forman. I do not know. Mr. Wiese may have a better idea 
than I do. Again, my focus is security and I have not been on 
that operating side for a long time.
    Mr. Carney. Okay.
    Mr. Forman. My apologies.
    Mr. Carney. You know, I kind of want to look a little bit 
into the future now. I obviously represent an area with the 
Marcellus shale formation and the natural gas that it contains. 
By some estimates, almost every estimate that I have read, it 
is 500 trillion cubic feet of natural gas, the biggest natural 
gas plate in America. I imagine that is going to entail a few 
more pipelines. Do we have any estimates on how many more miles 
of pipeline are going to be built in the next 20 or 30 years? I 
am not talking just about Pennsylvania, New York State, and 
Ohio and West Virginia, but generally.
    Mr. Wiese. I will answer in two ways. One is there was a 
recent study issued by the Interstate Natural Gas Association 
of America in which they projected annual construction. To the 
best of my ability to recall this--and it has been a little 
while since I saw it--they are projecting somewhere on the 
order of 2,000 to 3,000 miles per year of gas transmission 
pipeline. That is actually down from the past couple of years. 
There was a real spike in construction activity. So that is the 
first part.
    In terms of the large diameter long distance pipelines, 
there will be plenty coming from the Marcellus shale. They are 
going to take it to the markets where it is needed and will be 
consumed.
    But there is another sector of the pipeline that I think 
you will also see in Marcellus which are gas gathering, which 
are smaller ones that take it from a wellhead somewhere to a 
place where it is processed and then moved into the 
transportation network.
    Mr. Carney. The way the industry has described it to me is 
a web.
    Mr. Wiese. Yes, spaghetti bowl, I have seen that one before 
too.
    Mr. Carney. I hope it is not a spaghetti bowl.
    Mr. Wiese. But eventually, you have got to get the gas from 
the wellhead to the transportation artery system, so I really 
cannot project that one, but I know it will be significant in 
the shale gas plate.
    Mr. Carney. So if it is going to be a significant increase 
in miles of line and gathering line and things like that, do we 
see a significant increased opportunity for those who want to 
do ill to have a place to strike?
    Mr. Parfomak. I think the issue is not how many miles of 
pipeline, but where they are. Historically natural gas from the 
west, while you had enormous pipelines going through the middle 
of nowhere, sage grouse country, not that they are not 
important, but----
    Mr. Carney. They are delicious.
    Mr. Parfomak [continuing]. You know, there were not a whole 
lot of people there and so your security concerns would be 
about disruption of supplies, not injuring people necessarily, 
although it could certainly happen out there. But when you get 
to the east, east of the Mississippi, you have much more 
populated areas and so the concern there is that you are 
building comparable lengths of pipeline, but they are proximate 
to far, far greater numbers of people.
    Now FERC has regulatory jurisdiction of the siting of the 
natural gas transmission pipelines and they are not here. They 
would be good people to talk to about, you know, where they 
anticipate that and how they are viewing that. Certainly FERC 
takes safety and security considerations into account in their 
siting decisions, but you would have to speak directly to them 
to figure out how--to learn how they are dealing with expansion 
due to Marcellus shale and the other gas shale plates.
    Mr. Carney. Thanks.
    Mr. Forman. If I could add just a little bit. One of the 
things that I have found is that the historical facilities, 
when they were built, security was not a consideration because 
it just was not--you know, prior to 9/11, it really was not at 
the forefront of things you thought about when you built a 
pipeline facility because it was not a big issue. Now it is. 
Just like safety, just like all--operational integrity and all 
the other things. When new facilities are built, security is 
one of those components. You know, the operating guys come talk 
to the security guys and it is part of the consideration when 
those new facilities are built.
    Mr. Carney. Okay. Mr. Wiese.
    Mr. Wiese. I wonder if I might just add something. You 
know, we have looked at this too, but from a different 
standpoint. When there is a natural disaster, whether it is a 
hurricane or something else. One thing I will say, our studies 
on this in looking at the system is it is fairly robust. The 
system can take a shock locally and Nationally you will not see 
a huge impact. But I do want to say that the impacts locally 
are not to be diminished, I am not trying to do that. I am just 
drawing back on it for a second to say the system is fairly 
flexible. Gas can be--particularly gas--can be redirected 
fairly easily.
    So a lot of the companies prestore pipe too and so the line 
would be shut down automatically but then it would probably 
take on the order of 5 to 7 days to restore flow again. So I do 
not want to diminish the impact because locally that is felt 
and it can be significant, but Nationally I think the system 
can take a shock like that and absorb it fairly easily.
    Mr. Carney. Mr. Fox.
    Mr. Fox. If I may. I believe in front of you, you have a 
map of the continental United States that shows the 
transmission network.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Fox. Yes, sir. The blue lines are existing natural gas 
transmission lines. So as Mr. Wiese stated, it is a very robust 
system. If there is a failure or an attack on one line, many 
times there are other systems that the products or natural gas 
can be rerouted. So this map with all these lines shows, as we 
have stated, 2.5 million miles of pipelines. These are just the 
transmission lines, so it is about half a million miles. So 
there are 2 million more miles of distribution lines not shown 
here, but it gives you an idea of where we are getting our 
natural gas and our oils and where we are shipping them to.
    Mr. Carney. I would like to see this map updated in 5 years 
to see where the lines are. I suspect the northeast will be a 
little darker blue.
    Mr. Fox. I agree.
    Mr. Carney. Mr. Bilirakis, any further questions?
    Mr. Bilirakis. No, I am finished. Thank you very much for 
your testimony, appreciate it.
    Mr. Carney. I want to thank you all. We likely will have 
further questions. The good thing about these hearings is that 
the more questions you ask, the more questions you want to ask, 
but we do not have time. So if we do respond in writing with 
questions, please get back to us with your answers in a short 
order so we do not have to call you back before us again to 
answer them directly.
    Gentlemen, thank you so much for your testimony, for your 
insight and your expertise and for what you are doing. We will 
conclude this panel one and we will take a 5-minute recess for 
people to refresh and then we will get right back to it with 
the second panel.
    [Recess.]
    Mr. Carney. I would like to welcome our second panel to the 
hearing today.
    Our first witness is Mr. Larry Gispert. Mr. Gispert has 
lived in the Tampa area for most of his life and has been 
employed by the Hillsborough County Emergency Management since 
1980 and has been the director in charge of the county's 
emergency management program since 1993. Mr. Gispert is 
certified by the Florida Emergency Preparedness Association, or 
FEPA, as a professional emergency manager. He is also actively 
involved with FEPA and served as the treasurer from 1998 to 
1999 and the president in 2000. He has also served in various 
positions with the International Association of Emergency 
Managers, including the Region 4 president from 2004 to 2006, 
the first vice president in 2007 and the president in 2008. Mr. 
Gispert holds an Associate of Arts from St. Petersburg Junior 
College, an Associate of Science from Tampa Technical and a 
Bachelor of Science from the University of Tampa.
    Our second witness is Mr. Ron Rogers. Mr. Rogers is the 
assistant chief administrator with Hillsborough County Fire and 
Rescue and the program manager for the Florida USAR Task Force 
3. Mr. Rogers is the past chairman of the Florida Association 
for Search and Rescue, FASAR, and the past chairman of the 
Florida Association of HazMat Responders. He has worked in 
various positions in emergency response within Hillsborough 
County for over 29 years. He spent a majority of that time 
providing emergency medical care to the citizens of 
Hillsborough County as a paramedic for 15 years and as the 
special operations chief for 9 years. I was a paramedic too, 
sir, worked my way through college that way. During major 
events, Mr. Rogers is responsible for coordinating specialty 
resources for ACFR Florida and TF 3 and was responsible for the 
coordination of all search and rescue resources during 2004 and 
2005 hurricane seasons. This involved him in responding in 
advance to the storms to coordinate these joint Federal/State 
USAR efforts. As part of the State's effort to coordinate 
domestic preparedness, he serves as one of the co-chairs of the 
Regional Domestic Security Task Force.
    Our third witness is Colonel Ed Duncan. Colonel Duncan 
served the Hillsborough County Sheriff's Office in 1978--
joined, I am sorry, joined the Hillsborough County Sheriff's 
Office in 1978 and is currently the commander of the Department 
of Operations Support. He supervises the operations for all 
emergency preparedness initiatives and tactical operations, 
including the special weapons and tactics team, crisis 
negotiations team, criminal intelligence unit, bomb squad and 
dive team, along with the marine, K9 and aviation units. 
Colonel Duncan also supervises criminal investigations 
addressing environmental and agricultural crimes. That is a 
hell of a resume. During his tenure at the sheriff's office, 
Colonel Duncan has served as a patrol deputy, organized crimes 
detective, internal affairs corporal, tactical section 
sergeant, patrol lieutenant, criminal investigations division 
deputy commander and commander of the homeland security 
division. Colonel Duncan has also served as an active SWAT team 
member and assistant team leader. Colonel Duncan has a Bachelor 
of Arts in criminal justice from St. Leo University and is a 
graduate of the Ninth Session of the Senior Leadership Program 
at the Florida Criminal Justice Executive Institute. He has 
attended the United States Secret Service Dignitary Protection 
Seminar and various other law enforcement and tactical training 
courses. Colonel Duncan is currently the co-chairman of 
Florida's Region 4 Urban Area Security Initiative, committee 
chair for the Regional Domestic Terrorism Task Force, a voting 
member of the Medical Emergency Planning Committee for 
Hillsborough County and an active member of the Plant City 
Rotary Club.
    Without objection, the witnesses' full statements will be 
inserted into the record.
    I will now ask each witness to summarize his statement for 
5 minutes, beginning with Mr. Gispert.

   STATEMENT OF LARRY GISPERT, DIRECTOR, HILLSBOROUGH COUNTY 
                      EMERGENCY MANAGEMENT

    Mr. Gispert. Before we get started, let me welcome you guys 
to beautiful Plant City, one of the three cities in 
Hillsborough County, which is on the west coast of Florida. We 
used to have a football team, and we have a pretty good 
baseball team going, but our football is coming back together.
    Chairman Carney and Ranking Member Bilirakis and Members of 
the subcommittee, we appreciate the opportunity to testify 
today. I am Larry Gispert, the Director of Emergency Management 
for Hillsborough County, Florida, where we are meeting today. I 
am testifying today on behalf of the citizens of Hillsborough 
County, approximately 1.2 million people. I have 30 years 
experience in emergency management with 17 as the Hillsborough 
County Director. I am a past president of the International 
Association of Emergency Management, IAEM, and also served as 
past president of the Florida Emergency Preparedness 
Association, FEPA.
    Before I get started on my testimony, my daddy always said, 
``Larry, when a guy asks you the time of day, do not tell him 
how to build a watch.'' You asked a question--``Unclogging 
Pipeline Security: Are the Lines of Responsibility Clear?'' 
Speaking strictly from the local level, the answer is no.
    There are more than 300 miles of transmission pipelines in 
Hillsborough County carrying jet fuel, diesel, natural gas, and 
ammonia. There are many more miles of residential natural gas 
distribution lines in our county. I have been asked to address 
how we plan and respond to pipeline incidents, our interaction 
with Federal authorities, our relationship with pipeline 
operators, challenges we face, and concerns we have.
    Since July 2007, there has been close to 100 incidents 
involving pipelines reported in Hillsborough County and a 
number of full hazmat responses. In many cases, there were 
evacuations, road closures, and disruptions. Fortunately there 
was only one serious injury and no fatalities in these 
incidents. It is important to note that more than 90 percent of 
these incidents were from natural gas distribution lines and 
almost all of these were construction-related, a contractor 
with a backhoe digging up a line. In the 30-year history of the 
ammonia pipeline, there have been two major releases; one in 
May 2003 in the Fishhawk area and again in November 2007. Both 
of these releases were the result of intentional individual 
actions.
    In the past 2\1/2\ years, we have worked closely with 
Federal authorities to improve our abilities to respond to 
pipeline incidents and work towards preventing them altogether. 
We meet regularly with the United States Coast Guard and have 
contact with the Department of Homeland Security and 
Transportation Security Administration. We have met with 
Commandant Allen of the Coast Guard and talked with the past 
Administrator of the Department of Transportation Pipeline and 
Hazardous Materials Safety Administration, PHMSA. In August 
2008, we assisted PHMSA in hosting a roundtable on emergency 
response to anhydrous ammonia transportation incidents. There 
were approximately 130 people in attendance at the roundtable 
in Tampa. Those attending included representatives from local, 
State, and Federal Government, area first responders, and 
ammonia users from across the country, ammonia transporters 
(pipeline, rail, and truck), and academics. As a result of the 
success of that roundtable, it was decided to hold a similar 
workshop for chlorine gas. The chlorine workshop took place in 
March 2009. An indirect result of the roundtable was the 
agreement worked out with CSX Railroad and their customers to 
limit or stop the movement of railcars containing toxic 
inhalation substances during Super Bowl week of 2009.
    Since the November 2007 Riverview incident, we have been in 
regular contact with area pipeline operators (Kinder Morgan-
Central Florida Pipeline, Gulf Stream Natural Gas System, 
Florida Gas Transmission Company and Peoples Gas) and in 
particular Tampa Bay Pipeline Corporation. We worked with the 
companies and have produced new maps of the pipeline which have 
been distributed to area planners and first responders. Exposed 
portions of the ammonia pipeline now have jacketing to help 
prevent a recurrence similar to the 2007 incident. As 
Congressman Bilirakis said, a young kid drilled into it--cannot 
do it now.
    We understand that the responsibility for the security of 
our pipeline lies first with the operators and then with the 
locals. The Federal Government has a department who is 
responsible for the safety of pipelines, basically everything 
except security. There is a separate agency--responsible 
agency--responsible for pipeline security. This division has 11 
personnel--we now know that they have 13 or soon to have 13--
and is responsible for the entire United States pipeline 
system. Memorandums of Understanding, MOUs, between PHMSA and 
TSA notwithstanding, the separation of pipeline safety from 
pipeline security is a distinction without a difference to 
anyone except in Washington. To the best of my knowledge, my 
department has had no contact with anyone from the TSA Pipeline 
Security Division since the ammonia workshop. This is of 
concern to us and we would welcome the opportunity to share 
information.
    There seems to be a major disconnect between the goals and 
objectives of TSA and PHMSA and this is of major concern to us 
and area operators. This has led to confusion in the past and 
until reconciled will likely lead to future confusion. Mainly 
you have one agency whose goal is to make the location of 
buried pipelines as visible as possible so no one accidentally 
digs them up, and another Federal agency that would like to 
make them invisible so no one can intentionally blow them up. 
The question is do we continue to juggle safety and security 
until some sort of balance is reached or do we look for an 
alternate solution? In this day and age there ought to be a 
better system in place, one that assures both safety and 
security.
    We in Hillsborough County and the Tampa Bay region will 
remain vigilant. We will train, plan, and exercise so that we 
can continue to respond quickly, appropriately, and safely when 
things go wrong. They will go wrong. We will share any lessons 
learned and strive to remain a great example of cooperative 
effort. As I like to say to everyone, we are always ready to 
help you with your disaster, which means we prefer not to have 
them ourselves, we like to go help somebody else. But God does 
not grant us that all the time.
    Again, I would like to thank the subcommittee for the 
opportunity to testify and for their interest. I will be happy 
to answer any questions you may have at the appropriate time.
    [The statement of Mr. Gispert follows:]
                  Prepared Statement of Larry Gispert
    Chairman Carney, Ranking Member Bilirakis and Members of the 
subcommittee, we appreciate the opportunity to testify today.
    I am Larry Gispert, the Director of Emergency Management for 
Hillsborough County Florida where we are meeting today. I am testifying 
today on behalf of the citizens of Hillsborough County. I have 30 years 
experience in Emergency Management with 17 as the Hillsborough County 
Director. I am a past President of the International Association of 
Emergency Management (IAEM) and have also served as President of the 
Florida Emergency Preparedness Association.
    There are more than 300 miles of transmission pipelines in 
Hillsborough County carrying jet fuel, diesel, natural gas, and 
ammonia. There are many more miles of residential natural gas 
distribution lines in our county. I have been asked to address how we 
plan and respond to pipeline incidents, our interaction with Federal 
authorities, our relationship with pipeline operators, challenges we 
face and concerns we have.
    Since July 2007 there has been close to 100 incidents involving 
pipelines reported in Hillsborough County and a number of full Hazmat 
responses. In many cases there were evacuations, road closures, and 
disruptions; fortunately there was only one serious injury and no 
fatalities in these incidents. It is important to note that more than 
90 percent of these incidents were from Natural Gas distribution lines 
and almost all of these were construction-related accidents. In the 
near 30-year history of the ammonia pipeline there have been two major 
releases, one in May 2003 and again in November 2007. Both of these 
releases were the result of intentional individual actions.
    In the past 2\1/2\ years we have worked closely with Federal 
authorities to improve our abilities to respond to pipeline incidents 
and work towards preventing them all together. We meet regularly with 
the United States Coast Guard and have contact with the Department of 
Homeland Security (DHS) and Transportation Security Administration 
(TSA). We have met with Commandant Allen of the Coast Guard and talked 
with the past Administrator of the Department of Transportation 
Pipeline & Hazardous Materials Safety Administration (PHMSA). In August 
2008 we assisted PHMSA in hosting a Roundtable on Emergency Response to 
Anhydrous Ammonia Transportation Incidents. There were approximately 
130 people in attendance at the Roundtable in Tampa. Those 
participating included representatives from local, State, and Federal 
Government, area first responders, and ammonia users from across the 
country, ammonia transporters (pipeline, rail, and truck) and 
academics. As a result of the success of this Roundtable it was decided 
to hold a similar workshop for Chlorine gas. The Chlorine Workshop took 
place in March, 2009. An indirect result of the Roundtable was the 
agreement worked out with CSX Railroad and their customers to limit or 
stop the movement of railcars containing Toxic Inhalation Substances 
during Super Bowl week 2009.
    Since the November 2007 Riverview incident we have been in regular 
contact with area pipeline operators (Kinder Morgan--Central Florida 
Pipeline Co, Gulf Stream Natural Gas System, Florida Gas Transmission 
Co, and Peoples Gas) in particular Tampa Bay Pipeline Corporation. We 
worked with the company and have produced new maps of the pipeline 
which have been distributed to area planners and first responders. 
Exposed portions of the Ammonia pipeline now have jacketing to help 
prevent a reoccurrence.
    We understand that the responsibility for the security of our 
pipelines lies first with the operators and then with the locals. The 
Federal Government has a department who is responsible for the safety 
of pipelines--basically everything except security. There is a separate 
agency responsible for pipeline security. This division has eleven 
personnel (including two managers and four branch chiefs) and is 
responsible for all U.S. pipelines. Memorandums of Understanding (MOU) 
between PHMSA and TSA notwithstanding, the separation of pipeline 
safety from pipeline security are a distinction without a difference to 
anyone except in Washington. To the best of my knowledge my department 
has had no contact with anyone from the TSA Pipeline Security Division 
since the Ammonia Workshop. This is of concern to us and we would 
welcome the opportunity to share information.
    There seems to be a major disconnect between the goals and 
objectives of TSA and PHMSA and this is of major concern to us and area 
operators. This has lead to confusion in the past and until reconciled 
will likely lead to further confusion. Mainly you have one agency whose 
goal is to make the location of buried pipelines as visible as possible 
so no one accidently digs them up and another agency that would like to 
make them invisible so no one can intentionally blow them up. The 
question is do we continue to juggle safety and security until some 
sort of balance is reached or do we look for an alternate solution? In 
this day and age there ought to be a better system in place, one that 
assures both safety and security.
    We in Hillsborough County and the Tampa Bay region will remain 
vigilant. We will train, plan, and exercise so that we can continue to 
respond quickly, appropriately, and safely when things go wrong. We 
will share any lessons learned and strive to remain a great example of 
cooperative effort. As I like to say we are always ready to help you in 
your disaster.
    Again I would like to thank the subcommittee for the opportunity to 
testify and for their interest. I will be happy to answer any questions 
you may have at the appropriate time.

    Mr. Carney. Thank you, Mr. Gispert.
    Mr. Rogers for 5 minutes, please.

   STATEMENT OF RON ROGERS, ASSISTANT CHIEF-ADMINISTRATION, 
                HILLSBOROUGH COUNTY FIRE RESCUE

    Mr. Rogers. Good morning, Chairman Carney, Ranking Member 
Bilirakis; thank you for having us here.
    As mentioned earlier, I am Ron Rogers, I am the Assistant 
Chief for Administration for Hillsborough County Fire Rescue. I 
previously served for 9 years as the special operations chief 
for our department. The primary mission of that position was 
overseeing hazmat response and also search and rescue, 
technical rescue type of things.
    In addition to the experience that was mentioned in my 
background information, I had the fortune or misfortune of 
working in the chemical industry in my early years while I was 
going to school. Had a lot of experience working in the 
fertilizer industry using ammonia, so I have a lot of personal 
experience with these chemicals that are transported in these 
pipelines.
    As has been discussed in other testimony, Hillsborough 
County has a significant chemical pipeline network that 
presents the possibility of a major release at any time. Since 
July 2007, there has been close to 100 incidents involving 
pipelines reported in Hillsborough County. In many cases, there 
were evacuations, road closures, as Larry has mentioned. The 
important thing is that we have had two significant incidents 
involving the ammonia pipeline. Again, as mentioned, in 2003 
and in 2007, these releases were the result of persons 
interfering with the pipeline causing intentional releases.
    Throughout that process, the only interaction we have had 
with the pipeline operator was in direct response to those 
incidents. That includes no prior training, no interaction with 
the operators. We operate as well with them as we can in time 
of emergency, but one of the things that we would like to point 
out is that there needs to be, either in the guidelines or 
regulation if it is decided that that is the direction to go 
in, that there be a requirement for these operators to have 
regular hands-on training with the first responders that may be 
required to respond to these incidents. Currently there is no 
requirement. We recommended that after the 2007 incident. To 
date, the pipeline training that we have participated in has 
not been what we consider training, it has been more 
demonstrations. We have one this week, the Tampa Bay Pipeline 
is bringing first responders together with some of their 
companies for a demonstration of their capabilities. But it 
needs to go beyond the demonstration. It needs to be our 
personnel working with their personnel on a simulated release, 
learning the techniques and the equipment that we need to use 
in a time of a real event. Because as Larry said, it is not a 
matter of if, it is when.
    In particular, going beyond just the requirements for 
training, in order for us to interact in a critical situation 
with the personnel from the pipeline companies, we have to know 
beforehand preferably that their personnel have the proper 
training as required by the OSHA standards to go into a zone 
where there is hazardous chemicals being released actively. We 
have to know that they can go in with our personnel and that 
they have met all the training requirements to go in just like 
our personnel meet. Right now, today, we do not have any 
records of that. We do not have any knowledge of that 
information.
    It presented a real situation in the 2007 incident. It was 
attributed that we prevented their personnel from entering the 
hot zone and working on the pipeline. That is a factual 
statement. What was left out of that testimony was the fact 
that we would not let them go in because we had no idea what 
their experience and training was. It would be no different 
than a citizen approaching us and saying I can go in there and 
help, but having no documentation that they have any skills or 
competency to do that.
    Going beyond that, another requirement of the OSHA 
standards for personnel operating in a hazardous environment is 
that they have baseline medical monitoring. That is again 
something we asked the vendor at the time, during an on-going 
release: Do you have anything to support that your personnel 
have had that baseline monitoring? To date, we have no 
knowledge of that, we have seen no records of that. Even if 
they presented a policy that said we do this, that is all we 
are looking for.
    It is our recommendation that that be either instituted in 
the guidelines or in the regulations. We want to make the 
process of responding to those events that will happen as 
seamless as possible, give our personnel the ability to work 
with those people, to know those people before we show up on an 
emergency and proceed with the mitigation of that incident.
    In closing, we are here to help. We would like to be part 
of the process, to work with the operators to make the response 
to these things better. We believe that there is a process in 
place at the local emergency planning committee to facilitate 
the training. They do a very good job with a fixed site, fixed 
chemical facilities, and they would do a very good job managing 
this also.
    Hillsborough County is here to help. We will be happy to 
answer any other questions that you may have.
    [The statement of Mr. Rogers follows:]
                    Prepared Statement of Ron Rogers
    Chairman Carney, Ranking Member Bilirakis and Members of the 
subcommittee, we appreciate the opportunity to testify today.
    I am Ron Rogers, the Assistant Chief-Administration for 
Hillsborough County Fire Rescue in Hillsborough County, Florida where 
we are meeting today. I am testifying today on behalf of the citizens 
of Hillsborough County. I have 29 years experience in Emergency Service 
experience in Hillsborough County (nine as the Special Operations 
Chief). I am a past Chairman of the Association for Search and Rescue 
(FASAR) and a past Chairman of the Florida Association of HazMat 
Responders (FLAHR).
    As has been discussed in other testimony, Hillsborough County has a 
significant chemical pipeline network that presents the possibility of 
a major release at any time. Since July 2007 there has been close to 
100 incidents involving pipelines reported in Hillsborough County and a 
number of full Hazmat responses. In many cases there were evacuations, 
road closures, and disruptions; fortunately there was only one serious 
injury and no fatalities in these incidents. It is important to note 
that more than 90 percent of these incidents were from Natural Gas 
distribution lines and almost all of these were construction-related 
accidents. In the near 30-year history of the ammonia pipeline there 
have been many minor releases and two major releases, one in May 2003 
and again in November 2007. Both of these releases were the result of 
intentional individual actions.
    The pipeline damaged in these incidents is one of two owned and 
operated by the Tampa Bay Pipeline Company. The pipeline that was 
damaged was constructed in 1981, the other in 1979. It is 6 inches in 
diameter, approximately 30 miles long and carries liquid anhydrous 
ammonia from a storage facility in Port Sutton to chemical 
manufacturing facilities in Hillsborough and Polk Counties. In the past 
2\1/2\ years we have worked closely with other County agencies and 
Federal authorities to improve our ability to respond to these types of 
pipeline incidents and work towards preventing them all together.
    One area that continues to need improvement is on the documentation 
of training and medical monitoring that complies with Federal standards 
and joint interagency training. During the 2007 incident, a lack of 
training documentation prevented us from allowing the pipeline 
operators personnel from assisting in the hazard area. This issue was 
noted on Page 5 and 6 of the PHMSA Notice of Probable Violation 
Proposed Civil Penalty and Proposed Compliance Order dated May 7, 2008. 
Based on the previous issues, we would like to offer the following 
recommendations:
    Training.--It is the recommendation of Hillsborough County Fire 
Rescue that regular hands-on training be required that requires the 
owners of transmission pipelines to conduct regular hands-on training 
with the HazMat teams that would normally respond to an incident 
involving a release from their pipeline.
    Training Documentation.--It is the recommendation of Hillsborough 
County Fire Rescue that documentation be regularly provided to these 
HazMat teams documenting the completion of a minimum of hazardous 
materials technician level training as outlined in 29 CFR 
1910.120(q)(6)(iii).
    Medical Surveillance Documentation.--It is the recommendation of 
Hillsborough County Fire Rescue that documentation be regularly 
provided to these HazMat teams documenting the completion of a Medical 
Surveillance program in compliance with 29 CFR 1910.120(q)(9)(i) for 
all pipeline response personnel that may be expected to work in the Hot 
Zone during an emergency response. (See the attached letter dated March 
3, 2008)
    The above requirements could be monitored as part of the Local 
Emergency Planning Committee (LEPC) system currently in place. It is 
our opinion that if implemented these requirements would significantly 
improve the readiness for response of the pipeline operators and HazMat 
responders.
    Hillsborough County Fire Rescue will continue to assist in the 
preparedness for any future release as may be needed to assure the 
greatest level of protections to the population and environment. Thank 
you once again for the opportunity to testify and for your interest. I 
will be happy to answer any questions you may have at the appropriate 
time.

    Mr. Carney. Thank you, Mr. Rogers.
    Colonel Duncan, 5 minutes, please.

   STATEMENT OF COLONEL ED DUNCAN, COMMANDER, DEPARTMENT OF 
   OPERATIONAL SUPPORT, HILLSBOROUGH COUNTY SHERIFF'S OFFICE

    Colonel Duncan. Good morning, Chairman Carney, Ranking 
Member Bilirakis and subcommittee Members. On behalf of Sheriff 
David Gee of the Hillsborough County Sheriff's Office, I would 
like to thank you for convening this hearing and for your 
efforts to improve our Nation's pipeline security. As already 
stated, I am Colonel Ed Duncan. I have been employed with the 
Hillsborough County Sheriff's Office for 32 years, and have 
been responsible for overseeing the agency's tactical 
operations for 20 of those years.
    As you are aware, Hillsborough County has experienced three 
major chemical releases which required substantial citizen 
evacuations over the past several years. In each of these 
situations, the Hillsborough County Sheriff's Office 
responsibilities included:
    Securing the incident site.
    Evacuating citizens if necessary, and taking other measures 
necessary to protect human life.
    Investigating any criminal activity associated with the 
security breach.
    Implementing and controlling alternative traffic patterns.
    Our most recent chemical release requiring citizen 
evacuation was the anhydrous ammonia release of November 2007. 
This release was a result of a juvenile puncturing a pipeline 
based on his unfortunate mistaken belief that the pipeline was 
a conduit to banks which contained money. There were no 
fatalities from this event, but hundreds of citizens were 
evacuated as a safety measure.
    Since the 2007 incident, there have been significant 
improvements to pipeline security. Pipeline vendors have placed 
security sheathing on above-ground pipes and installed enhanced 
locking mechanisms on valves and valve housing sites. Training 
drills related specifically to chemical releases are now 
conducted to maintain optimal response practices. The Tampa Bay 
Regional Security Task Force and the Urban Area Initiative are 
now more particularly focused on hazardous material security. 
Our local Critical Infrastructure Committee has increased its 
inspections on anhydrous ammonia pipe sites. Today, through 
Site Profiler, which is a web-based assessment tool, the Tampa 
Bay area has continuous access to constantly updated mapping 
and data information on all local chemical pipelines and 
facilities.
    An important partner in our local security efforts is 
Assistant Federal Security Director Greg Mertz of the local 
office of TSA. Mr. Mertz routinely participates with emergency 
response agencies through our Urban Area Security Initiative 
and Regional Domestic Terrorism Task Force. Recently they have 
conducted inspections on some of our pipelines that are located 
within our facility, which is much needed and appreciated. For 
example, last summer, the local TSA sponsored a roundtable 
entitled ``Emergency Response to Anhydrous Ammonia 
Transportation Incidents'' which was attended by several of our 
public safety and emergency response leaders. As a result of 
this and dozens of other similar collaborations over the past 
2\1/2\ years, our region's public safety partners have become 
much better equipped to prevent and respond to chemical 
incidents.
    Yet, there is critical work to be done. Today, no Federal, 
State, or local agency has clear regulatory authority to impose 
security improvements on companies involved in the production 
and transportation of chemicals through public areas. 
Currently, they rely on voluntary compliance to these 
guidelines. Regulations of the chemical production and 
transportation community is not a role that the local 
government is authorized to control. Such regulations can only 
be developed and instilled through Federal leadership, 
legislation, and action. If you ask my agency what one single 
step remains to be taken that would most improve our Nation's 
pipeline security, our response is that the Federal Government 
should empower the TSA to both establish and enforce security 
regulations on pipeline producers and transporters. We hope the 
work of this committee leads to a successful accomplishment of 
this key step.
    Going forward, it is our understanding that TSA Pipeline 
Security Division is publishing updated pipeline security 
guidelines this year. We eagerly await receipt of these 
guidelines and hope that they contain provisions to help ensure 
more stringent security measures are maintained by the 
companies responsible for producing, transporting hazardous 
materials in and near our communities. If there is anything the 
Hillsborough County Sheriff's Office can do to assist in this 
effort, we stand by and ready.
    Thank you.
    [The statement of Colonel Duncan follows:]
 Prepared Statement of Colonel Ed Duncan on behalf of Sheriff David Gee
                             April 19, 2010
    Hello, Chairman Carney, Ranking Member Bilirakis and subcommittee 
Members. On behalf of Sheriff David Gee of the Hillsborough County 
Sheriff's Office, I would like to thank you for convening this hearing, 
and for your efforts to improve our Nation's pipeline security. I'm 
Colonel Ed Duncan. I've been employed with the Hillsborough County 
Sheriff's Office for 32 years, and have been responsible for overseeing 
our tactical operations for 20 of those years.
    As you are aware, Hillsborough County has experienced three major 
chemical release situations which required substantial citizen 
evacuations over the past several years. In each of these situations, 
the Hillsborough County Sheriff's Office's responsibilities included:
    1. Securing the incident site.
    2. Evacuating citizens, if necessary, and taking other measures 
        necessary to protect human life.
    3. Investigating any criminal activity associated with the security 
        breach.
    4. Implementing and controlling alternative traffic patterns.
    Our most recent chemical release requiring citizen evacuation was 
the anhydrous ammonia release of November 12-14, 2007. This leak was a 
result of a juvenile puncturing the pipeline, based on his 
unfortunately mistaken belief that the pipeline was a conduit for money 
between banks. There were no fatalities from that event, but hundreds 
of citizens were evacuated as a safety measure.
    Since the 2007 incident, there have been significant improvements 
to local pipeline security. Pipeline vendors have placed security 
sheathing on above-ground pipes and installed enhanced locking 
mechanisms on valves and valve housing sites. Training drills related 
specifically to chemical releases are now conducted to maintain optimal 
response practices. The Tampa Bay Regional Domestic Security Task Force 
and Urban Area Security Initiative are now more particularly focused on 
hazardous materials security. Our local Critical Infrastructure 
Committee has increased its inspections of anhydrous pipeline sites. 
And today, through Site Profiler, all public safety and emergency 
response partners in Tampa Bay have continuous access to constantly-
updated mapping and data information for all local chemical pipelines 
and facilities.
    An important partner in our local security efforts is Assistant 
Federal Security Director Gregory Mertz, of the local office of the 
Transportation Security Administration (TSA). SA Mertz routinely 
participates with emergency response agencies through our Urban Area 
Security Initiative and Regional Domestic Security Task Force. For 
example, last summer the local TSA sponsored a roundtable titled 
``Emergency Response to Anhydrous Ammonia Transportation Incidents'' 
which was attended by approximately 50 public safety and emergency 
response leaders. As a result of this, and dozens of other similar 
collaborations over the past 2\1/2\ years, our region's public safety 
partners have become much better equipped to prevent and respond to a 
chemical incident.
    Yet, there is still critical work that must be done. Today, no 
Federal, State, or local agency has clear regulatory authority to 
impose security improvements on companies involved in the production 
and transportation of chemicals through public areas. Regulation of the 
chemical production and transportation community is not a role that 
local government is authorized to control. Such regulation can only be 
developed and instilled through Federal leadership, legislation, and 
action. If you ask my agency what one single step remains to be taken 
that would most improve our Nation's pipeline security, our response is 
that the Federal Government should empower the Transportation Security 
Administration to both establish and enforce security regulations on 
chemical producers and transporters. We hope the work of this committee 
leads it to be successful in accomplishing this key step.
    Going forward, it is our understanding that the TSA Pipeline 
Security Division is publishing updated pipeline securities guidelines 
this year. We eagerly await receipt of these guidelines, and hope that 
they contain provisions that help ensure more stringent security 
measures are maintained by the companies responsible for producing and 
transporting hazardous materials in and near our communities. If there 
is anything the Hillsborough County Sheriff's Office can do to assist 
in this effort, we stand ready.
    Thank you very much Chairman Carney, and committee Members, for 
your proactive leadership in this important domestic security issue.

    Mr. Carney. Thank you, Colonel Duncan.
    And I thank each of you for your testimonies and we will do 
a round of questions like we did in the previous panel. I will 
begin with myself.
    I guess I need to ask Mr. Gispert and Mr. Rogers this. Do 
you agree with the assessment of Colonel Duncan that there 
needs to be regulation rather than just recommendations?
    Mr. Gispert. Yes.
    Mr. Carney. Okay.
    Mr. Gispert. We at the local level are very simple. We want 
one button to push, we want one Federal agency that we can go 
to and say we are having a problem with this and they can say 
thou shalt do this. Right now, it is a collaboration and let's 
try to get--this is dangerous stuff. These people need to say 
you do not have a choice, you will do this.
    Mr. Rogers. I agree completely. Especially in tough 
economic times like we are in right now, guidelines tend to get 
pushed aside; regulations, it is a lot more difficult to do 
that.
    Mr. Carney. So it is the considered opinion of the three 
experts, local experts here, that regulations need to be 
promulgated. Okay.
    Mr. Rogers, you said something that was striking to me, 
that you are not trained when people do demonstrations to you. 
Can you elaborate a little bit on that?
    Mr. Rogers. One of the issues that was raised in the 2003 
and the 2007 pipeline releases was the fact that the first time 
our hazmat team had any interaction with the pipeline company 
representatives was with that release, the first one in 2003. 
Again, there was no training or any involvement between them 
between 2003 and 2007. It was less of an issue in the 2003 
release because that was a plug taken out of a valve in a valve 
box, there was very little that we could do to really do 
anything with that other than just wait for the pressure to 
drop, because you had basically a quarter-inch hole that was 
down in a confined area, we couldn't do a whole lot with it.
    The 2007 release was a hole in the side of the pipeline 
that was fairly easy to access but we don't have equipment for 
that type of pressurized release. You have an issue where it is 
coming out under pressure, has a high expansion factor, plus 
the fact that it is cold, it is very cold. Our method of 
handling that is you essentially mitigate the release as best 
you can with water streams and wait for the pressure to drop to 
the point where we can go in and do something.
    We had a lot of people from the pipeline company say that 
they could do different things, but we did not have any 
confidence in their ability to do that because when questioned, 
they did not seem to really be able to answer our questions 
very well. Not having any hands-on experience with them before 
the release, actually going in and watching them or working 
with them side-by-side, our hazmat team and their personnel 
should be training side-by-side, actually going in and stopping 
releases in a controlled environment so that when you have 
these uncontrolled releases, that you know that the two teams 
can go in and work together and manage these releases.
    What came out after the release, when we were having our 
after-action, was they had never even tried this before. There 
were companies that were not related to the pipeline company 
that said they could stop a release like this but Tampa Bay 
Pipeline had never attempted to stop a release like this. So it 
turns out they were just basically telling us what they thought 
we wanted to hear.
    Other issues that came up were just their availability to 
bring in resources in a timely manner. It was only because of 
pressure from us to get people in quicker that--they were 
debating whether to bring the guy from Louisiana or the guy 
from Texas to put the stop on. Those are the kinds of things 
you do not work out in a crisis, that is worked out ahead of 
time.
    Mr. Carney. Right. Now you expressed these concerns to me. 
Did you express them also to the pipeline owners?
    Mr. Rogers. Yes, sir. It has been expressed to the 
pipeline, it has been expressed as part of the compliance 
review by PHMSA. We actually testified in the review of that, 
related to the proposed fine, and have voiced that throughout 
that process.
    Mr. Carney. What was the pipeline owner's response?
    Mr. Rogers. Their response is--I believe part of it is 
misinterpretation on their part that they believe that 
demonstrations are training. They are the ones actually 
sponsoring the demonstration that is this week. They have 
labeled that training but when I have checked into what is 
actually going to happen, it is going to be a demonstration of 
their contractors and their personnel, not a direct hands-on 
interaction with our personnel.
    Mr. Carney. You and I did not get to be paramedics by 
watching Emergency 911.
    Mr. Rogers. No, sir. You do hands-on.
    Mr. Carney. I gotcha, okay.
    No further questions in this round. Mr. Bilirakis.
    Mr. Bilirakis. Thank you, appreciate it.
    Thank you for your testimony; thanks for your attendance; 
thanks for doing such a great job for Florida and specifically 
Hillsborough County.
    I know you touched on this, Mr. Gispert, but I am going to 
give you another opportunity as well. Your comments about the 
differing perspectives between PHMSA and TSA regarding 
pipelines are quite interesting. Specifically you highlighted 
the fact that PHMSA wants people to know these pipelines are 
dangerous so people will stay away while TSA wants them hidden 
so they will not be considered targets of opportunity. Which is 
the right answer? How do we strike a balance? I know you 
brought it up. In your opinion and based on your observations, 
are TSA and PHMSA working together to coalesce around a unified 
message on issues related to pipeline security? I probably know 
the answer but I want to get your--you can elaborate if you 
wish.
    Mr. Gispert. When we get involved, the security has already 
been breached.
    Mr. Bilirakis. Okay.
    Mr. Gispert. So, we would love for a sign saying hey, 
dummy, there is a pipeline here, do not dig your backhoe here, 
do not do this and everything else.
    Mr. Bilirakis. Right.
    Mr. Gispert. I do understand that people that want to do 
bad things against a community will take that and that is where 
they will dig. But 90 percent of the time or more, it is a 
contractor digging a trench to lay an electrical line or 
something that hits it with a backhoe that causes us to 
evacuate hundreds of people. We feel that the balance should be 
struck, but it should be struck to the knowledge of where 
things are.
    Part of the problem that Ron brought up is the 
understanding of how much ammonia was still in the line. They 
debated for hours on how much ammonia was in the line because 
they have reversing valves and stuff like this, and where are 
the reversing valves located.
    Mr. Bilirakis. Right.
    Mr. Gispert. It depends--you do mathematical formulas. That 
should be known. They should walk up and say okay, Mr. Hazmat 
Responder, there is 100 pounds of product still in there and we 
estimate that it will be out of there in 20 minutes. Instead of 
saying--all they could see is the stuff was spitting out and 
continued to spit out. We said how much have you got in there? 
That should be known. That is why he wants to train with these 
people so they have a comfort level.
    We need to know where the stuff is, we need to know where 
those valve boxes are. That was a big deal and Colonel Duncan 
will tell you, how could he know whether they were secure or 
not if you did not know where they were? What we found out, now 
they have done a big issue and our critical infrastructure 
people have identified it, they put special locks on it and 
stuff like that. But we have got to know where this stuff is.
    By the way, there is more stuff, as you stated, coming. 
They are going to do a liquid natural gas port device right off 
the coast for those big ships. We need to know where that stuff 
is.
    I do not get invited by the Chamber of Commerce to talk all 
the time because they are sending 8 by 10 glossies northward 
saying yankees, come down here and live and do business, this 
is a beautiful place. Well, you talk about hurricanes, 
tornadoes--do you realize that 50 percent of the hazardous 
materials in the whole State of Florida come in and out of that 
port of Tampa every day? I have a full time planner that keeps 
information on over 300 business locations that have extremely 
hazardous substances that exceed the maximum threshold. There 
is a lot of chemicals in this community. Now they make your 
life worth living when they are used right, but they get 
outside their containers, they can kill you.
    So we have to be vigilant. So we always default to what is 
going on, how much have we got, where is it at, who knows this, 
who knows that.
    There should be a striking point between those two 
agencies. If you are going to bifurcate the responsibility, 
then there should be a clear understanding amongst them. Part 
of the problem when we had our after-action report, we kept 
asking: Who the hell is in charge? The one thing that the 
pipeline company knew, it was not the locals. We had no ability 
to tell them to do anything. It had to be the Federal 
Government. But was it the Coast Guard? Did not happen on the 
waterways, no. Was it U.S. DOT, we think? But it was a security 
issue because a kid drilled a hole, so it was TSA. So we 
bounced back and forth on who was really in charge. I do not 
think we have really answered the question yet, have we, Ron?
    Mr. Rogers. Not really.
    Mr. Gispert. Not really, not to our satisfaction.
    Mr. Bilirakis. Thank you for your frankness.
    Anyone else? This is what we need to hear.
    Mr. Rogers. Larry brought up an outstanding point. One of 
the other things that we asked for, both in 2003 and in 2007, 
related to the release was some clear information from the 
company how long can we expect this release to go on, assuming 
we cannot stop it, which in both cases we could not. To me, 
having a background in hazardous materials response, one of the 
things we look at is modeling. I am also what you would call a 
geek, I know there is a lot of computer modeling technology out 
there. It seems logical that you have a known vessel--it is a 
pipeline and when you close the valves, it is a vessel. Knowing 
the distance between those valves and which valves are closed 
and what was in the pipeline before that, you know the 
properties of the chemical, it seems logical that there would 
be something that would be able to tell you there is this much 
in that pipeline and with the size of leak that we think you 
have--and you never know because you cannot get up and see the 
exact size, but you have got an idea. You can see it is a 
fairly small release. How long is it going to take to come out 
of there with the current weather conditions? That is something 
they did not have. We have asked for it, it is actually in the 
PHMSA reports and our after-action report, and to our 
knowledge, there still is nothing that has been done to 
identify that.
    It is particularly an issue with the liquefied ammonia 
pipelines and then with the liquefied natural gas pipeline that 
they are bringing in because when you compress or refrigerate a 
liquid to make it--a gas to make it liquid, when it comes out 
of that vessel that it is in and comes back to atmospheric 
temperature, it has an expansion factor that is significant. So 
you may have a gallon of liquid but when it expands to gas, it 
is going to be a much greater volume.
    That is the kind of information we need. How do we know 
what kind of area even to evacuate? We have got some programs 
that are out there, Cameo, Aloha, Marplot, that type of family 
of programs, but they do not work on pipelines, they are based 
around a tank. That is one of the issues that really should not 
be the responsibility of the pipeline company, but that should 
be the responsibility of somebody at the Federal level to 
develop that.
    Mr. Bilirakis. Thank you. Colonel.
    Colonel Duncan. One of the things that I noticed in this 
event, the 2007 event, we did have a lot of people coming to 
the scene offering some information. However, we got no clear 
direction, like Ron was saying earlier. There was some 
speculation, if you would.
    What that impacted from a law enforcement side is that we 
had citizens that were displaced for long periods of time. We 
had a main north-south thoroughfare, highway 301, that was 
shut-down that affected us tremendously.
    So the resources that we had to allocate to mitigate this 
problem from the law enforcement standpoint was substantial. I 
must say though that since that incident, we have had an 
opportunity to meet. The first responders have all met and sat 
down and there still is some uncertainty as to, again: Who is 
the one responsible for this? Of the boots on the ground, who 
is going to take the lead? It ultimately fell back on the 
locals to take the lead because fortunately in this community, 
I must say, in Region 4 here, we have a very close partnership 
with all of our local, State, and Federal partners. Most of us 
grew up together in this community, so we are very familiar 
with one another. That helped us resolve our issues. They were 
prolonged because of the lack of direction. However, we were 
able to work through those as we have normally done in the 
past. But in other areas where they may not have that----
    Mr. Bilirakis. It may not be like that in Pennsylvania.
    Colonel Duncan. Correct.
    Mr. Bilirakis. Actually Pennsylvania is my second favorite 
State. I just had to say that.
    [Laughter.]
    Mr. Bilirakis. My dad was raised in Pittsburgh. I had to 
say that.
    Colonel Duncan. But one of the issues that I was thinking 
earlier as we discussed the regulations, it is based solely now 
on someone's voluntary compliance. Whereas, maybe one community 
and one region of the State has a good working relationship and 
they want to be a good partner or be a good collaborative 
effort. That is not always necessarily true.
    So if you do not have these strict guidelines or 
regulations that we can impose, then what are we doing? We are 
hoping that everyone will be on their best behavior and play 
well in the sand box.
    Mr. Bilirakis. Mr. Gispert.
    Mr. Gispert. We do not want to come off banging Tampa Bay 
Pipeline. They are a part of our community, they are a very 
great economic generator, jobs and stuff like that.
    What we are trying to tell you is if you want to be 
regulated, pass it down to the locals, hell, we will regulate 
them. But under the current scenario, we are not permitted to. 
None of the local agencies can tell them anything. We could 
have probably back in these zoning--when they wanted to locate, 
say no, you cannot be there. But once they are there, they are 
there. All we do is you call, we haul, we respond.
    Somebody has got to grab a hold and say this is serious 
stuff. Voluntary compliance does not work when it is serious. 
This is serious, these are people's lives and a lot of 
economics. So somebody at the Federal level--because nobody at 
the State level has that ability as far as we know.
    Mr. Bilirakis. Right.
    Mr. Gispert. Somebody at the Federal level has got to say 
okay, I am the one in charge, and by the way, thou shalt do 
this, you have no choice. Or we will pull your license to 
operate.
    Because by the way, we sit all day long saying it is going 
to happen, it is going to happen. We think there, we drink, we 
eat, we sleep, we are saying it is going to happen, the big one 
is coming. Everybody says you guys are a bunch of schmoes, you 
are doomsday. It is going to happen. It may not be tomorrow 
but, by the way, it is going to happen. We have got to be ready 
because if we are not ready, then the community is really 
severely impacted, many of them will die.
    Mr. Carney. Let us use the 2007 example. Did you get 
conflicting information from TSA and DOT? Did they not show up? 
Did they show up and work together? What was your experience in 
that regard?
    Mr. Rogers. I know DOT was there, the Coast Guard was there 
very early. The Coast Guard was there within a matter of hours. 
DOT was there probably the next day.
    Mr. Carney. How long did this plume last, by the way?
    Mr. Rogers. Our response as far as from release to when we 
considered it under control was 40 hours.
    Mr. Carney. Forty hours.
    Mr. Rogers. Yes.
    Mr. Bilirakis. When DOT was there, were they calling the 
shots or----
    Mr. Rogers. They were part--we had a unified command and 
when you have a unified command, there is not necessarily a 
specific agency or person in charge, it kind of rotates 
depending on what the issue is. DOT was part of the unified 
command. I honestly do not remember if TSA was ever involved. 
Colonel Duncan may be able to answer that.
    Colonel Duncan. I cannot answer that, sir. I do not know if 
they were on scene or not that day.
    Mr. Carney. I am going to do something that is sort of 
unusual for Congressional hearings. I am going to ask a couple 
of panelists from the previous panel if they would like to 
respond.
    Mr. Fox, Mr. Wiese, do you want to give your points of view 
on this, please?
    Mr. Fox. Thank you for the opportunity. In fact, in front 
of you there is another graph that we handed out which shows 
lines of responsibility graphically.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Fox. At the time of a release, PHMSA is then--they have 
the responsibility and the authority for repair and 
restoration. That is in their regulations. So TSA's role 
diminishes at the time of a release. We have a stronger role up 
through intel or what-have-you, and then FBI takes over and 
PHMSA takes over on repair and release. Now I do know TSA had 
folks there on the day after the release, they met with the 
pipeline company, local TSA folks came to town and met with the 
pipeline company and then I had a team there 3 or 4 weeks later 
and we did a complete review of that pipeline system and made 
security recommendations.
    We have followed up and the company actually followed and 
did every recommendation for security that we made to them, 
within say the following year everything was completed.
    Your local law enforcement works well. On Saturday 
afternoon, I went to the site of this on 301, I was trying to 
stop to get down and look at it and the State police stopped me 
and asked me what I was doing there. So your local law 
enforcement worked very well.
    But TSA did have some folks there, but our role--as soon as 
the release happens, our role diminishes and PHMSA's role takes 
over at that time.
    Mr. Wiese. I think Jack pretty accurately portrayed that. 
Our job initially is to set a regulatory framework for safety 
and then to inspect and provide the deterrents to non-
compliance for that. The operator was inspected on the order of 
every other year. There have been a number of minor issues that 
we have brought to the operator's attention over the years. In 
this particular case, as Jack said, once the event happened, we 
dispatched someone to come down and work with people, both in 
the after-action and then forward. But we also initiated a 
fairly intensive investigation. I know it is not satisfying to 
the responders because that is after-the-fact, but it is one of 
the ways in which you try to correct remedies, you know, is to 
do the investigation. We have initiated an enforcement action 
and I am not really at liberty to discuss that one, but it is 
fairly near to being finalized.
    Mr. Carney. Well, people hate being the test case on these 
things.
    Mr. Wiese, Mr. Fox, who should have been giving direction 
to locals or from your perspective, is it the locals' 
responsibility?
    Mr. Wiese. No, I think in that case, it is really the 
pipeline operator's responsibility, both in terms of our 
regulations and TSA guidance, to maintain on-going liaison with 
emergency responders and have a familiarity with one another 
such that, as was raised here, in the event of an emergency, 
they can integrate and work well together. I think there was 
just a bit of a lack of interchange on the liaison end.
    Mr. Carney. Mr. Rogers, was that your experience? What was 
your experience with this?
    Mr. Rogers. Our experience before the--up until the 2007 
release, the only way we knew the company representatives for 
the 2007 release was because of the 2003 release. There has 
been some on-going interaction with Tampa Bay Pipeline since 
the release, but it has not met our expectations.
    Mr. Carney. So you have had two releases and now there is--
you would characterize that as minimal contact?
    Mr. Rogers. Well, I think honestly the company is doing the 
best that they can. I think they are trying, but again, I think 
it goes back to the fact that there are no--there is no written 
regulations that clearly delineate, these are the things that 
you are expected to do. If you look at the chemical industry, 
the fixed facilities, there are very specific steps that they 
have to do. We have regular interaction with them. They 
participate in the local emergency planning committee process. 
We have biennial exercises and that works. That does not happen 
with the pipeline companies and it is not just Tampa Bay 
Pipeline, it is all the pipelines.
    Mr. Gispert. Let me clarify. We were not looking for big 
father to be on the scene and saying you guys are doing this 
wrong, do it this way. That is not what we are talking about. 
What we are talking about is Ron's problem of interacting with 
the facility, knowing their operators, knowing their 
qualifications. The only person that can make that happen is 
the Federal person.
    As far as on scene, these guys are well qualified, they do 
not need no onlookers looking over their shoulder.
    Mr. Carney. Sure.
    Mr. Gispert. But they needed to know that the pipeline was 
telling them the right thing about how much product is there.
    Mr. Carney. Right, right, gotcha.
    Mr. Gispert. But the Federal regulators can do that, not 
the locals.
    Mr. Carney. Mr. Wiese.
    Mr. Wiese. You know, I would say that there are regulations 
that require on-going liaison with the emergency responders. If 
you look at the enforcement action that the agency moved 
subsequent to this, it really orbits around that. It is 
basically echoing what you are hearing here. There is a 
requirement for on-going liaison and that does establish roles 
and responsibilities up-front.
    You know, in our view and based on our investigation, our 
allegation is that that was inadequate in this case. That led 
to the confusion in the emergency response.
    Mr. Carney. Okay, it is inadequate because it was not 
promulgated properly? It is inadequate because it is not 
clearly defining the chain of command?
    Mr. Wiese. No, operationally. I think that the paper was 
there, the operator has plans and records. You know, could they 
be improved? Probably. You know, but the real issue is the 
operationalization of that so that the regular interchange with 
the emergency responders so they have the maps and records, 
they knew where the block valves would be, where the check 
valve would be, and they would know what the company's 
capabilities would be.
    Mr. Carney. Great. Ron.
    Mr. Rogers. The concern I have as a local responder and 
somebody that lives in the community--my parents live 
immediately adjacent to one of the natural gas transmission 
lines--we are focusing--a lot of what I have talked about today 
is the ammonia pipeline but there are other pipelines in our 
county, there are a lot of other pipelines in the country.
    The issue is, we have had a lot of interaction with the 
companies as far as just--you know, we go to meetings with 
them, we go to table top exercises and they participate to 
various degrees in the planning process, but our personnel in 
the field that are the ones that are going to have to put the 
suits on and go into the incident, do not have regular 
interaction with those people.
    The requirement for liaison is not the same as a 
requirement for regular interactive training.That is what I am 
saying. Liaison just means that my boss knows your boss and we 
can meet and greet each other by first name when we are 
together. That is not what I am looking for. I am looking for 
the ability for our personnel to interact with the pipeline 
operators and be comfortable that they can go into an extremely 
hazardous environment and work with those people and know that 
they are not going to get killed by the person next to them 
doing something stupid.
    Mr. Carney. Do you agree, Mr. Wiese?
    Mr. Wiese. I would agree with the importance of that. I 
think you can hear me.
    Mr. Carney. Yeah, go ahead.
    Mr. Wiese. I would agree absolutely with the importance of 
what he just said. The only difference I am trying to draw is 
that we think in this case, it did not happen. The requirement 
is there to do it, it just did not happen to the degree that it 
should have. That is the nature of the allegations.
    Mr. Carney. So the regulation that exists seems to be--can 
be amended to say training rather than liaison.
    Mr. Wiese. It actually does say ``issues relating to, 
including'' is the phrase in there, ``including training and 
response exercises.'' But it is not to say--it is well 
received, I am listening to that, that you want a more explicit 
requirement for exercising that plan.
    Mr. Carney. Okay, all right.
    Mr. Bilirakis.
    Mr. Bilirakis. Thank you, sir.
    I think this has been very informative and we know what our 
task is when we go back to the District of Columbia.
    Mr. Gispert, in your testimony, you mentioned that as a 
result of the relationship developed during the chlorine 
workshop, you were able to work with CSX Railroad executives to 
stop the movement of toxic inhalation substances during the 
Super Bowl week in 2009. How did that agreement develop and who 
were the players involved? Did TSA participate in those 
discussions? If so, what was their level of involvement?
    Mr. Gispert. I can say yes, it did happen and I am going to 
pass it to Colonel Duncan because Colonel Duncan was involved 
in the security aspects and that is where it came up as a 
potential security issue.
    Colonel Duncan. Yes, sir. When we started meeting on the 
Super Bowl, we approached all facets of potential threats to 
the environment and to the footprint of the stadium. As a 
result, we had representatives from all of our Federal, State, 
and local partners and TSA was a part of that, local assistant 
director Greg Mertz was available for us. Along with his 
assistance and the DOT, we were able to implement that request 
to stop all that type of traffic during the time frame of the 
Super Bowl.
    Mr. Bilirakis. Anyone else involved?
    Mr. Gispert. I will state that there are some academians 
that would wish that none of that toxic material goes through 
an urban city at all. The problem that we have got is the 
chemicals come in to the port and then you must get the 
chemicals from the port to where they actually do it and we are 
not going to dig another port. So it is going to be physically 
impossible for Tampa to make a prohibition that thou shalt not 
transport these chemicals through these areas because they must 
go there.
    So unfortunately--it would be nice in a perfect world if 
none of this stuff went anywhere close to anybody and I think 
the Congressman and I were talking about the airport scenario. 
When we built Tampa International Airport a long time ago, it 
was out in the bushes. Then as people came down here and 
visited, the next thing you know, residences start popping up 
and guess what, they started complaining about the noise.
    Mr. Bilirakis. Right.
    Mr. Gispert. You are: Wait a minute, when we built the 
airport, you were not there.
    Mr. Bilirakis. Yeah.
    Mr. Gispert. But now that you are there, you want us to 
close the airport down. No can do.
    Mr. Bilirakis. Right. Thank you.
    Colonel, you mentioned the role of the assistant Federal 
secretary Director George Mertz and his routine participation 
in emergency response scenarios. That is refreshing of course 
to hear. Are you concerned, however, that Mr. Mertz' non-
pipeline security-related responsibilities monopolize his time? 
Do you think TSA's Federal security director should be TSA's 
point person for pipeline security issues?
    Colonel Duncan. To answer that question from the local 
boots-on-the-ground perspective, it is great to have someone 
like Greg Mertz that we are all familiar with and we can reach 
and contact him immediately.
    Mr. Bilirakis. Right.
    Colonel Duncan. Greg is very responsive to us. In speaking 
with him, he has a group of pipeline inspectors, they have a 
pipeline division under his local branch of TSA. They have no 
authority other than the fact that they go out and they do some 
inspections and they can make recommendations as far as what 
these people should do. In talking with Mr. Mertz, his 
biggest--as you can imagine, being at Tampa International 
Airport, his biggest responsibility and his main focus is on 
the safety of passengers, whether they be with the rail or 
flight.
    Mr. Bilirakis. Right.
    Colonel Duncan. So he is very busy with that. The pipeline 
part of it probably occupies a small amount of his time and 
probably deserve equally as much of his attention.
    Mr. Bilirakis. Do you have any suggestions of what we can 
do?
    Colonel Duncan. The question was asked earlier of the panel 
about additional personnel for TSA.
    Mr. Bilirakis. Right.
    Colonel Duncan. I must say with the staffing that they 
currently have and the volume of work that is being placed upon 
those personnel, I think it would be obvious that an increase 
of staffing would be beneficial to all parties concerned, not 
even the locals but also the citizens which we as the local 
groups serve.
    Mr. Bilirakis. Anyone else?
    Mr. Rogers. I agree completely with that. I was quite 
frankly startled with the budget and the number of FTEs they 
have. That sounds like a local agency, not an agency 
responsible for the whole country.
    Mr. Bilirakis. I have got a couple more, but I will do one 
more.
    Mr. Carney. No, finish up.
    Mr. Bilirakis. How frequently do you exercise your 
emergency response plans as they relate to pipeline incidents? 
Do operators participate in these exercises?
    Mr. Gispert. To be honest with you, we do not exercise the 
pipeline probably but every couple of years because the biggest 
threat to this area, as you may know being from Florida, is the 
weather. We exercise that quite often.
    Mr. Bilirakis. Yes.
    Mr. Gispert. We probably should exercise a lot of our 
things, but can I put a pitch in for the fact that the economy 
is tearing us up at the local level? We are laying people off 
at the local level and so I lost 600 of my team members this 
year that went out the door because of the budget. I told my 
county administrator our ability to respond has been diminished 
as such.
    So if I taxed what little people we had with a drill every 
week, they would kill me. So we try to maximize and focus on 
our biggest threats. So we do not traditionally practice the 
pipeline scenario. We do practice terrorism responses, but 
normally to large venues such as stadiums and stuff like that. 
So we do not practice the pipeline that often.
    Mr. Rogers. If I may----
    Mr. Bilirakis. Yes, go ahead.
    Mr. Rogers. One of things that actually, as much as we hate 
it, if there is a regulatory requirement that we participate in 
those exercises, that is actually the stick sometimes that 
pushes us to do that as well. We all have priorities, as Larry 
mentioned, you know, there has been staffing cuts, but we fit 
in the things that we have to fit in. So sometimes we need that 
nudge too.
    Mr. Bilirakis. Okay, thank you. I yield back, Mr. Chairman.
    Mr. Carney. I frankly have no further questions. I have 
found this extremely enlightening and frustrating and 
heartening and all kinds of things. It is probably one of the 
more useful subcommittee hearings we have had, to be quite 
honest. Because it does not just apply to Tampa Bay region, it 
applies to the entire Nation.
    My concern is that the frustrations you felt in 2007 and 
the 2003 event are not--I imagine they probably are, but I 
would hope that they were not shared with your counterparts 
elsewhere in the country with other pipeline events.
    I really appreciate your expertise. You know, the folks 
most directly involved in the ground are the ones, you know, 
that really resonate with me and we need to figure out what we 
can do from our chairs in Washington. We hear constantly that 
the Government is too big or there's too much regulation and 
this sort of thing. Maybe in some cases, that might be true, 
but when it comes down to protecting lives, I think we probably 
ought to err on the side of security, to be honest.
    Mr. Bilirakis. I agree. I have a couple more questions, but 
this is where we should be putting the money, on safety and 
security.
    Can I ask a couple more, Mr. Chairman?
    Mr. Carney. You absolutely can.
    Mr. Bilirakis. Okay, excellent.
    This is for all the witnesses. Have you used grant funding 
received from the Department of Homeland Security to enhance 
your pipeline security efforts? If you have not, can we be of 
assistance?
    Mr. Gispert. The answer is yes.
    Mr. Bilirakis. Okay.
    Mr. Gispert. We are expecting that grant money to fade away 
as the Federal Government looks for money to pay for other 
issues. We have proudly, and we will confront any of our 
Congressmen and say we used every Federal dollar smartly that 
you sent us. If you sent us more, we would do more.
    Mr. Bilirakis. Okay. Well, let us assist in that area. 
Anyone else want to respond?
    Colonel Duncan. Yes, sir. Earlier in my testimony, I 
mentioned Site Profiler, it is a risk management system that we 
actually deployed with the assistance of the Tampa Bay Pipeline 
and the other pipeline vendors here in our community. We have 
been able to input all that information and so we know exactly 
where all of our pipelines are that go through our community. 
That Site Profiler system was purchased through our grant 
dollars, through the Urban Area Security Initiative.
    Mr. Bilirakis. Very good.
    Mr. Rogers. A lot of the training and exercises that we do 
is funded through the Federal grant funds. So that is a 
significant contribution, as well as the equipment that we have 
that enables us to respond. Obviously being a response agency, 
that is our primary focus, but there has been a significant 
improvement in the funding for security across the State. A lot 
of the things that came about as a result of 9/11 have really 
helped bring agencies together as well and a lot of that is 
funded by grant funding. But as Larry said, there is never 
enough.
    Mr. Gispert. We would like to tell you that you are sitting 
in the most prepared community in the country. We have got so 
much more we need to do. So do not go back up in Washington and 
forget that fact and think that well, you have got $4.3 billion 
over 5 years. Once again, we can answer the question any day: 
Did we use the Federal dollars right? Yes. Could we use more? 
Yes. If you gave us more, we would do more.
    Tampa is such an attractive place from all different 
reasons of people visiting, our industry, our port, and 
everything else like that, so we are sitting in hectic times 
with budget issues and the fact that the security people will 
tell you that the security issues seem to ramp up. So remember 
us when you are up in Washington. Send us a couple of bucks.
    Mr. Bilirakis. I hear you.
    Last question for all the witnesses. I think this is pretty 
important. Do you have mutual aid agreements with surrounding 
counties if you need additional support during response to a 
pipeline incident? I know that happens with the fire 
department, the local agreements, but can you answer that 
question? Do you have agreements with the surrounding counties?
    Mr. Rogers. One of the things--as you know, Florida has a 
significant vulnerability to hurricanes. As a result of that, 
we have a very robust structure for deploying resources 
throughout the State and as was illustrated in 2005 with 
Katrina, the ability to distribute those resources regionally. 
Florida was the first mutual aid resources to reach Mississippi 
within 12 hours of Katrina making landfall, and contributed 
significantly to that across the board, not just fire rescue 
but law enforcement, emergency management. There is a saying 
that Florida saved Mississippi and that has a lot of truth to 
it and that was relayed by the Governor of Mississippi. So we 
do have--there is a very robust structure for deploying 
resources that is being modeled, or used as a model for some of 
the things that are trying to be done to address issues like we 
faced in Katrina.
    Mr. Gispert. Florida has, since the early 1990s, a State-
wide mutual aid agreement which is signatory to all 67 
counties, all 400-plus municipalities, water management 
districts and all that other stuff. All the paperwork, all the 
who pays for workmen's comp--what happens if Ron goes to 
Pensacola and gets hurt, who is going to pay his workmen's 
comp? What is the reimbursement?--and by the way, if the 
Federal Government reimburses us, fine; if they do not, we 
still get paid because a part of that mutual aid agreement is 
if I ask you for help, I will pay you. All the rates are 
established, so it is all there. So we do not need individual 
agreements, we have a State-wide agreement.
    Colonel Duncan. Yes, sir, that applies to all the law 
enforcement as well. Also just to, if I could, throw another 
tout for our community here, the Tampa Police Department, the 
large city agency within this county, all it takes from me is a 
phone call to them and they send resources as well. So we have 
those mutual understandings available for deployment at any 
given time.
    Mr. Rogers. That is the case on the fire rescue side as 
well. We respond with each other every day.
    Mr. Bilirakis. Thank you very much, I appreciate it.
    I yield back, Mr. Chairman.
    Mr. Carney. Thank you.
    I really want to thank the panel for their testimony and 
their insight, it was great.
    I do, from a personal note, want to really echo what Mr. 
Bilirakis said earlier at the outset of the first panel, that 
we work pretty well together, the Ranking Member and myself, 
and when it comes to homeland security and that sort of thing, 
the partisanship aspect you keep hearing about is out the 
window, it does not happen. We work as hard as we can together 
to keep this country safe and it is something that we all take 
seriously. Just so you have a view from the other side, it is 
important to understand that.
    Mr. Bilirakis. I wish that the other committees worked as 
well as we do. The Veterans Committee does a good job with 
bipartisanship and we work on behalf of our Nation's heroes 
together. But Chris is an outstanding Chairman and, like I 
said, we agree on most everything and it is just a good model 
to have.
    But thank you very much for presenting today and please be 
in touch with our office. I want to meet with you guys again 
real soon, so we can see how I can help you up in the District 
of Columbia. Thanks so much, appreciate it.
    Thanks to the City of Plant City for hosting us.
    Mr. Carney. We may have further questions, and if so, we 
will ask them and please respond in writing.
    Having no further business before the subcommittee this 
morning, we stand adjourned.
    [Whereupon, at 12:38 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
